<html>
<title> - IRAN NUCLEAR NEGOTIATIONS: STATUS OF TALKS AND THE ROLE OF CONGRESS</title>
<body><pre>[Senate Hearing 114-121]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-121

  IRAN NUCLEAR NEGOTIATIONS: STATUS OF TALKS AND THE ROLE OF CONGRESS

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 21, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-532 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, TENNESSEE, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts
              Lester E. Munson III, Staff Director        
           Jodi B. Herman, Democratic Staff Director        

                              (ii)        

  











                            C O N T E N T S

                              ----------                              
                                                                   Page

Blinken, Hon. Antony J., Deputy Secretary of State, U.S. 
  Department of State, Washington, DC............................     8
    Prepared statement...........................................    11
    Responses of Antony J. Blinken to Questions submitted by 
      Senator Bob Corker.........................................    64
    Responses of Antony J. Blinken to questions submitted by 
      Senator Marco Rubio........................................    65
    Responses of Antony J. Blinken to questions submitted by 
      Senator Johnny Isakson.....................................    67
Boxer, Hon. Barbara, U.S. Senator From California................     6
Cohen, Hon. David S., Under Secretary for Terrorism and Financial 
  Intelligence, U.S. Department of Treasury, Washington, DC......    15
    Prepared statement...........................................    16
Corker, Hon. Bob, U.S. Senator From Tennessee....................     1
Menendez, Hon. Robert, U.S. Senator From New Jersey..............     3

                                 (iii)

  

 
  IRAN NUCLEAR NEGOTIATIONS: STATUS OF TALKS AND THE ROLE OF CONGRESS

                              ----------                              


                      WEDNESDAY, JANUARY 21, 2015

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker 
(chairman of the committee) presiding.
    Present: Senators Corker, Risch, Rubio, Johnson, Flake, 
Gardner, Purdue, Paul, Barrasso, Menendez, Boxer, Shaheen, 
Coons, Udall, Murphy, Kaine, and Markey.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. So I am going to call the--call the meeting 
to order. And I would say to people in the audience that we 
would appreciate you refraining. We understand people have 
strong emotions about much of what happens in this committee 
and others, and we hope you will respect the work of the 
committee.
    I have never operated a gavel. I learned as a young man how 
to operate a hammer. I understand my staff told me to be a 
little more gentle with this, but I want to welcome--I want to 
welcome everybody to the committee.
    We switched sides. That was not symbolic. I understand just 
because of the number of seats, it works better this way.
    I do want to welcome the new members to the committee and 
say that under Senator Menendez's leadership, I really believe 
that this committee has caused its profile to rise.
    We have passed a number of very important pieces of 
legislation out of this committee, and I think it is because of 
his leadership that that has happened. And I want to thank him 
for that.
    I want to say to all of the committee members that we plan 
certainly to build upon that. We have a number of very 
important issues to deal with. The Nation has put its trust in 
us to deal with these issues in a sober way, and I think that 
the issue today that we will be talking about really reminds us 
of the indispensable nature of U.S. leadership.
    I think the committee has, like any committee, we have 
important things to deal with, and we have urgent things to 
deal with. And we need to do both. Important is for us to 
continue as a committee to show that the importance of 
strategic U.S. engagement and how that improves our economy and 
makes us safer here at home.
    At the same time, we need to make sure that our taxpayer 
dollars are spent wisely. And so, while it will take some time 
to build, I would like for us to work toward a State Department 
authorization. I think all of us know that we have not passed 
one since 2002.
    So what that means is the State Department is basically 
operating off of policies that we passed 13 years ago. And if 
we really want to leverage our efforts, what would make sense--
and I look forward to working with Ranking Member Menendez in 
this way--would be for us to ensure that what the State 
Department is doing is leveraging those kind of things that we 
would like to see happen.
    I do not want to shy away from difficult issues. This first 
hearing certainly is evidence of that. I want to make sure that 
the views of all committee members are heard. I want to make 
sure that we strengthen our Nation in the process.
    Today, we are here to talk about Iran. And I want to say to 
our witnesses thank you for being here. I think there are 
legitimate concerns by almost everybody on this committee, and 
it is not in any way disloyal. It is not an infringement upon 
anybody else to say that we have legitimate concerns.
    And when you think about where we are in the Iran 
negotiations, so we had six U.S. security resolutions--U.N. 
security resolutions that called for full suspension of 
enrichment. We then moved to this standard called practical 
needs. In other words, if you are in Iran and you have--if you 
want to do enrichment, even though that is in violation of the 
U.N. Security Council resolutions, what are the practical needs 
of the country?
    And by all estimation, that is maybe 500 centrifuges. And 
yet we know the negotiations have moved way beyond that. We 
know that.
    We talked about dismantlement, and we have concerns of what 
dismantlement now means. Some people are saying that means 
simply unplugging or disconnecting the plumbing, to use very 
coarse terms.
    People are concerned about research and development. We 
spend a lot of time talking about IR-1s and IR-2s, and yet we 
know the Iranians are way beyond that--we are talking about IR-
6, IR-7--way beyond that in research and development. The 
agreement itself does not speak at all to ballistic missile 
development. Significant concerns for all of us.
    And we believe that--although I am not sure this is the 
case. I had a meeting last night, and maybe this is not true, 
and I know that some of you can enlighten us here today. But we 
are concerned about what we are really going to cause Iran to 
do relative to their past military dimensions. I think most of 
us think they were way down the road in their military 
development up until 2003, and I think we would like to 
understand the type of technology that they have developed.
    And I know this, and you all have shared this with us in 
all kinds of meetings, they still are stiff-arming the IAEA 
relative to access to many of their facilities, which obviously 
continues to cause us to have great concerns about their 
trustworthiness.
    I think all of us know they are destabilizing the region. 
We watch what is happening in Yemen. We watch what is happening 
with Hezbollah and Iran. We watch what is happening with Hamas. 
We know that they are--even with the minor amounts of money 
that has been lessened from the sanctions regime that Senator 
Menendez and Senator Kirk and all of us worked together to put 
in place, even with that minor amount of money, we know that 
that has enhanced their ability to destabilize the region. We 
know that.
    And you can imagine if we end up with a really bad deal 
that ends up creating a nuclear arms race in the region and 
makes the world less safe and yet much more money is released, 
they can destabilize the region more. So, obviously, there are 
significant concerns.
    I am proposing some legislation--and I look forward to 
hearing from you all today, and we are vetting it with people 
on this committee--that builds off the 123 agreements that we 
have in place right now. Senator Markey is very familiar with 
this.
    But we--27 times this Nation has approved a 123 agreement 
with another nation under a civil nuclear arrangement where 
we--you all reach an agreement with a country, and we approve 
it. Secretary Kerry came in and said that he wants to make sure 
that any agreement that happens passes muster with Congress. I 
would like to understand today how you would like to see us 
pass muster.
    One way to do it is an up-or-down vote. I know there have 
been a lot of discussions, and I do not know if Senator 
Menendez will speak to this, a lot of discussions about what we 
might do, what we might not do. I have talked to Prime Minister 
Cameron. I talked to the U.K.--excuse me, European Union 
negotiator last night in my office. Some of us were in Israel 
this weekend over this very same issue.
    We have heard no one, no one say that if Congress were to 
weigh in on the final agreement it would have anything--it 
would in any way destabilize the negotiations. And as a matter 
of fact, we understand that Iran's Parliament may have to 
approve their agreement.
    So I hope today you will share with us the appropriate role 
for us to play. We obviously have our own thoughts. We thank 
you for being here.
    And with that--I am sorry to give such a long opening 
comment--to the Ranking Member Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman.
    And let me also welcome our new colleagues on the 
committee. This is an extraordinary committee to serve on, 
which is a confluence of both the national security of the 
United States, the national economic imperatives of the United 
States in the global context, as well as major issues for which 
America is exceptional on democracy, human rights, among other 
issues. So I welcome you, and I think you are going to find it 
an extraordinary experience.
    Since this is the first hearing that we have had of the new 
committee as assembled, I want to congratulate the chairman on 
his ascendancy to the chairmanship. I want to say that during 
the 2 years that I was chairman, we worked extraordinarily well 
in a collaborative fashion. And in the midst of partisanship in 
the Senate as a whole, this committee was an island of 
bipartisanship on so many major issues that overwhelmingly 
passed the committee in almost every instance with strong 
bipartisan support.
    And we look forward to working with you in the same 
context, with the same comity, and with the same goals at the 
end of the day. And we look forward to you having a very 
successful chairmanship of the committee.
    I want to, in the context of the hearing, say that I share 
your concerns that the Iranians are playing for time. Over the 
past 18 months, we have been moving closer to their positions 
on all key elements--on the Arak reactor, on Fordow, on 
enrichment, and on Iran's disclosure of the military dimensions 
of its nuclear program.
    And I think we need to review how we got to this point. 
Iran, over the course of 20 years, deceived the international 
community and violated not U.S., but U.N. Security Council 
resolutions to arrive within weeks of achieving nuclear 
breakout capacity. And Iran came to the table only after the 
cumulative impact of years of sanctions began to affect the 
regime's economic and political stability.
    For us to give up the leverage of sanctions--which would 
take years to reimpose--we need a deal that truly reverses 
their nuclear program rather than just buying a little time. 
This is why I am concerned about more than breakout time.
    I am concerned the agreement will not provide a clear 
picture of the military dimensions of Iran's program--which are 
critical to understand to know how far down the road they were 
as it relates to weaponization; so that we understand the 
timeframes of any breakout capacity vis-a-vis weaponization; so 
that we know just how close Iran is to being able to make a 
nuclear weapon.
    And I am concerned that instead of dismantling and closing 
Arak and Fordow, as we were told was going to be the case at 
the beginning of these negotiations by the administration, the 
Arak reactor will now be converted to some form and Fordow--a 
facility built under a mountain--which I do not think you do 
for civilian purposes, will be repurposed.
    After 18 months of stalling, Iran needs to know that there 
will be consequences for failure. Now some of us believe those 
consequences should be additional sanctions. While we are 
playing nice, however, Iran is playing an asymmetrical game, 
violating, in my view, the spirit and intent of sanctions.
    In November, Iran violated the interim agreement by feeding 
uranium gas into its IR-5 centrifuge at the Natanz research 
facility. The issue of whether this was a violation of the 
interim agreement is only an issue because at the time of the 
interim agreement the IR-5 had not been used for enrichment, 
and hence, the agreement only prohibited Iran from making 
advances on the IR-6. That is spin if I have ever heard it.
    But in any case, the action clearly violated the intent of 
the agreement to halt enrichment advances at Natanz, and it 
violated IAEA and U.N. Security Council resolutions. And it is 
interesting to note, as we are talking about verification 
agreements--should we be able to get an agreement--that it was 
a group of scientists outside of the administration that 
noticed this and were the ones to inform the administration 
about it. So that makes me worried about our verification 
processes moving forward.
    In December, the U.N. Panel of Experts that monitor 
sanctions compliance said in a report that Iran has been 
illicitly trying to buy technology for the Arak research 
reactor, which, as originally designed, would produce plutonium 
for a bomb and has been referred to by experts as a bombmaking 
factory because of the quantity of plutonium output.
    Under the interim agreement, Iran agreed to make no further 
advances in the construction at Arak. Iran's position is that 
any purchases alone would not contravene the agreement, only 
new construction. Well, if you believe that, I have a reactor 
to sell to you.
    And just last week, Iranian President Rouhani announced 
that construction had begun on two new nuclear reactors at 
Bushehr. While not a technical violation of the Joint Plan of 
Action, the announcement is clearly intended to leverage 
further gains in the negotiation.
    And the very next day, the Iranian regime announced that 
Washington Post correspondent, Jason Rezaian, who has been in 
prison for 178 days, had been referred to the Revolutionary 
Court that handles sensitive national security cases. As The 
Washington Post said in a recent editorial, ``It's difficult to 
avoid the conclusion that Mr. Rezaian is being used as a human 
pawn in the regime's attempt to gain leverage in the 
negotiations.''
    So we have this whole alternate track that the Iranians can 
cheat on, but because it is technically not in the Joint Plan 
of Action, well, we do not call them on it. That is a great--
that is a great opportunity if you can get it--that you can 
advance your interests outside of the JPOA and ``not violate'' 
the JPOA.
    So let me close by saying Iran is clearly taking steps that 
can only be interpreted as provocative. Yet the administration 
appears willing to excuse away any connection between these 
developments and signs of Iran's bad faith in negotiations.
    It seems that we are allowing Iran to shuffle the deck and 
deal the cards in this negotiation and that we are playing 
dealer's choice. Frankly, that is not good enough.
    We need to get into the game.
    Now, up until now, Iran has not been motivated sufficiently 
to make tough decisions. And I hope there will be an agreement 
in March, but I also believe we need to make clear that there 
are consequences to no deal or to a bad deal, as Senator Corker 
is referring to, and I am intrigued by his most recent concept 
of his legislation.
    So, Mr. Chairman, thank you for holding the hearing, and I 
will look forward to hearing from our witnesses.
    The Chairman. Thank you, Mr. Ranking Member. I am not used 
to calling you that yet.
    And to the other members, I want to say we do not normally 
give those long comments on the front end. They are usually a 
little shorter. This is obviously one that evokes a lot of 
concern.
    We are going to be having--the committee will operate by 
early bird rule. If you are here when the gavel goes down, you 
will know what order you are in. We have watched people come in 
and sit and wait as other people come in and out.
    But in order to show we are not going to be totally rigid, 
I know that Senator Boxer has a meeting. We do not normally 
have other opening comments. She is not going to ask questions 
later. But since she has to go to another meeting, she wanted 
to say a couple of words on the front end, and I am going to 
allow her to do that.
    Thank you.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Mr. Chairman, thank you for your generosity 
of spirit.
    Senator Inhofe called our organizational meeting for EPW 
down the hall, and I have to be there. And I so appreciate 
this.
    I want to thank both my chairman and ranking member now for 
this hearing. We are all here today with the same goal, and 
that is to prevent Iran from acquiring a nuclear weapon. But we 
have different thoughts about the best way to do that, and that 
is why this hearing is so critical. And we welcome the 
witnesses as well.
    Well, we have a historic opportunity to peacefully achieve 
this goal. And to me, it seems like you have got to give this 
diplomacy a chance to work. I think it is only common sense. As 
President Obama said, war should be a last resort, not a first 
resort. And a peaceful end to Iran's nuclear program, I 
believe, is in the best interests of America and in the best 
interests of our great ally Israel.
    And that is why I am concerned, and it is not partisan. I 
have a concern that reaches across party lines that some 
colleagues are pushing to enact new sanctions while our 
negotiators are still at the table. I do not believe that 
strengthens us. It does not strengthen our position at all, and 
these negotiations are going on right now.
    In fact, I think if we enacted that legislation, we would 
jeopardize a chance, a once-in-a-lifetime perhaps chance of 
having a far-reaching, final, comprehensive agreement, which we 
know is going to be hard. Our own President has said it is a 
50/50 chance. He is not, you know, wearing rose-colored glasses 
on the point.
    Our own intelligence community said, and I quote, ``New 
sanctions would undermine the prospects for a successful 
comprehensive nuclear agreement with Iran.''
    And passing new sanctions legislation would threaten the 
unity we have achieved with the world, and that is critical. I 
want to quote British Prime Minister David Cameron, who said 
last week, ``As a country that stands alongside America in 
these vital negotiations, that it is the opinion of the United 
Kingdom that further sanctions or further threat of sanctions 
at this point will not actually help to bring the talks to a 
successful conclusion, and they could fracture the 
international unity there which has been so valuable in 
presenting a united front to Iran.''
    And I think a new sanctions bill would give Iran an excuse 
to walk away. I think it says to Iran, to the hardliners, you 
see you cannot really deal with America.
    Now in the end, they may not be able to, and we might not 
be able to either. It is all--life is about timing. We all know 
that. We ran. We got our seats because of timing. Everything is 
about timing, and this is not the time.
    So, in closing, let me say I oppose the legislation I have 
seen so far. I have not seen the new proposal. I look forward 
to seeing it. But I am working on legislation with Senator Paul 
to send a clear, unequivocal signal that Iran will be held 
accountable for its actions, and any failure to fulfill its 
commitments will be met by swift action by Congress.
    So our bill, in essence, would allow expedited 
consideration by Congress of legislation to reinstate waived or 
suspended sanctions against Iran if the President, in 
consultation with the intelligence community, determines that 
Iran has violated any existing nuclear agreement.
    Senator Paul and I are putting the final touches on this 
bill. We think it is a moderate proposal because I think we are 
going to see perhaps three options. One option, which would 
essentially do nothing but just have a series of findings, 
which I do not think goes far enough, and one that perhaps 
moves too quickly toward sanctions.
    So Senator Paul will be working on that with me, putting 
the finishing touches. We are very excited to share it with our 
chairman and ranking member.
    Mr. Chairman, I thank you so much for this opportunity.
    The Chairman. Thank you. Thank you.
    Just to be clear before we move to the witnesses, there has 
been a lot of confusion about what this committee does and what 
the Banking Committee does. Any sanctions legislation it has 
been determined will be dealt with in the Banking Committee----
    Senator Boxer. Right.
    The Chairman. [continuing]. Because of the Treasury 
functions. So this committee, I think, will be looking at ways 
for Congress to weigh in. And one of those is just for us to 
approve, up or down, the final deal, which is what we do on 
every civil nuclear deal that comes our way. Certainly, this is 
of greater importance.
    But with that, I want to thank everyone for their comments. 
I want to move to the witnesses. Thank you for your patience.
    Our first witness is Tony Blinken, the Deputy Secretary of 
State. Mr. Blinken assumed his post after being confirmed by 
the Senate in December. He is a former Deputy National Security 
Adviser to the President and has previously served as the 
Democratic staff director of this committee from 2002 to 2008. 
Welcome back.
    Our second witness today is David Cohen, the Under 
Secretary of Treasury for Terrorism and Financial Intelligence. 
Mr. Cohen has been in his position since 2011 and has recently 
been appointed Deputy Director of the CIA. He has previously 
served as Assistant Secretary of the Treasury for Terrorist 
Financing, where I think he has done an outstanding job.
    I want to thank you both for being here and sharing your 
thoughts and viewpoints with us today. We would remind you that 
your full statements, without objection, will be included in 
the record. If you could keep your remarks to around 5 minutes, 
we would appreciate it. I know there will be numbers of 
questions.
    So thank you again for being here. We look forward to your 
testimony.

STATEMENT OF HON. ANTONY J. BLINKEN, DEPUTY SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Blinken. Mr. Chairman, Ranking Member Menendez, thank 
you very much for having us here today.
    Mr. Chairman, congratulations to you on assuming the 
chairmanship. I am very glad you are wielding the gavel, not 
the hammer, but very much look forward to working with you, the 
ranking member, and all the members of this committee going 
forward.
    And I think it is very appropriate that you are starting 
the hearings here today in this Congress on the subject of Iran 
and the nuclear negotiations. It is an issue of paramount 
importance to our national security and an issue that we have 
labored on with Congress for years.
    Secretary Kerry, Under Secretary Sherman, as you know, and 
our entire negotiating team were in Geneva last week as part of 
the effort to get to an agreement where Iran's nuclear program 
we can be sure is used for exclusively peaceful purposes. And I 
want to tell you about where we are with that today.
    I will give you as much detail as I can. It may be 
appropriate at a later stage to do some of this in a closed 
setting, given that the negotiations are ongoing and it is hard 
to get into some of the detail in public without undermining 
our negotiating position.
    We remain committed to continue and indeed, when necessary, 
to expand the regular consultations we have had with Congress 
and particularly with this committee on these negotiations. We 
share the same goal, to make the world a safer place by 
resolving the international community's concerns about Iran's 
nuclear program.
    Our core goals for the negotiations are clear and 
consistent. Any agreement we reach must effectively cut off the 
four pathways Iran has to obtain enough fissile material for a 
nuclear weapon--the two uranium pathways through its activities 
at Natanz and Fordow, a plutonium pathway through the Arak 
heavy water reactor, and a potential covert pathway.
    Any agreement must require stringent access, monitoring, 
transparency measures to maximize the international community's 
capabilities to detect quickly any attempt by Iran to break out 
overtly or covertly. Any agreement must give us confidence that 
should Iran choose to break its commitments, it would take at 
least 1 year to produce enough fissile material for a bomb. And 
any agreement must deal with some of the issues that you and 
Ranking Member Menendez alluded to, including the missile 
question, R&D, possible military dimensions of the program, et 
cetera. And we can talk about that in questioning.
    In exchange, the international community would provide Iran 
with phased sanctions relief tied to verifiable actions on its 
part. Such relief would be structured so that the sanctions 
could be quickly reimposed if Iran were to violate its 
commitments.
    The discussions last week with Secretary Kerry, in our 
judgment, were substantive. They were serious. We have made 
real progress on closing some of the gaps that separate us. But 
at the same time, real gaps remain. I would be happy, again, to 
provide further information on exactly where we are, along with 
Ambassador Sherman and others, in a closed setting so we can go 
into more detail.
    Overall, our assessment remains that we have a credible 
chance to reach a deal that is in the best interests of 
America's security as well as that of our allies and partners. 
Our goal is to conclude the major elements of the deal by the 
end of March and then to complete the technical details by 
June.
    In our judgment, we are negotiating from a position of 
strength. In the past, Iran has used the cover of talks to buy 
time and advance its program in significant ways. Thanks to the 
interim agreement we have reached, the so-called Joint Plan of 
Action, or JPOA, Iran's program was fundamentally frozen in 
many key respects, rolled back in some others, and 
international inspectors have been given extraordinary access.
    Before the JPOA, Iran had about 200 kilograms of 20 percent 
enriched uranium in a form that could be quickly converted into 
weapons-grade material. It produced much of that material at 
the Fordow facility, which, as the Ranking Member Menendez 
says, is very deep underground.
    Today, Iran has no 20 percent enriched uranium, zero, none. 
It has diluted or converted every ounce, suspended all uranium 
enrichment above 5 percent, removed the connections at Fordow 
that allowed them to produce the 20 percent in the first place.
    Before the JPOA, Iran was making real progress, as you 
know, on the Arak reactor, which, had it become operational and 
together with the reprocessing facility, would have provided 
Iran with a plutonium path to the bomb. Once fueled, the Arak 
facility would have been very challenging to deal with 
militarily. Today, Arak is frozen in place. No new components, 
no testing, no fuel.
    Before the JPOA, Iran had installed roughly 19,000 
centrifuges, the vast bulk of them at the Natanz facility. 
Today, 9,000 of those centrifuges are not operational. Iran has 
installed no new centrifuges, including no new next-generation 
models, and its stockpile of 4 percent low-enriched uranium is 
capped at its pre-JPOA level.
    Before the JPOA, inspectors had less frequent access to 
Iran's nuclear facilities. Today, under the JPOA, it has 
enabled IAEA inspectors to have daily access to Iran's 
enrichment facilities and a far deeper understanding of its 
nuclear program, its centrifuge production, its uranium mines 
and mills, and other facilities important to monitoring the 
program and detecting any attempts to break out.
    And the IAEA has consistently reported that Iran has lived 
up to its commitments under the JPOA. Just as we have asked 
Iran to uphold commitments under this agreement, we have lived 
up to our commitment to provide Iran with limited relief, about 
$14 billion to $15 billion from the start of the agreement to 
this June when it ends. And David Cohen can talk more about 
that.
    But that relief is dwarfed by the vast amounts denied to 
Iran under the existing sanctions regime that we are vigorously 
implementing. The entire sanctions architecture remains in 
place, and David can talk about that.
    Congress, as has been mentioned, is now considering 
legislation to impose additional sanctions on Iran, should 
negotiations fail. And let me say at the outset, I know the 
intent of this legislation is to further increase pressure on 
Iran and in so doing strengthen the hand of our negotiators and 
strengthen our leverage.
    We very much appreciate that intent, but it is our 
considered judgment and strongly held view that new sanctions 
at this time are both unnecessary and, far from enhancing the 
prospect of negotiations, risk fatally undermining our 
diplomacy, making a deal less likely and unraveling the 
sanctions regime that so many have worked so hard to put in 
place. They are unnecessary because, as I noted a moment ago, 
and then David will go into more detail on this, Iran already 
is under intense pressure from the application of the existing 
sanctions.
    In recent months, that pressure has actually grown stronger 
with the dramatic drop in oil prices. Should Iran refuse a 
reasonable agreement or cheat on its current commitments under 
the JPOA, the Senate could impose additional measures in a 
matter of hours, matching or going beyond what the House 
already has passed.
    The administration would strongly support such action. Iran 
is well aware that a sword of Damocles hangs over its head. It 
needs no further motivation.
    So the sanctions, new sanctions at this point are not 
necessary, but we also believe their passage now would put at 
risk getting to a final deal over the next several months. Let 
me very briefly explain why.
    As part of the JPOA, we committed within the bounds of our 
system not to impose new nuclear-related sanctions while the 
JPOA is in effect. Absent a breach by Iran, any new sanctions 
enacted by Congress would be viewed by Iran and the 
international community as the United States breaking out of 
the understandings of the JPOA.
    This, in our judgment, includes so-called trigger 
legislation that would tie the actual implementation of new 
sanctions to the failure to reach a final agreement. Even if 
such legislation is not technically and arguably a violation of 
the JPOA, we believe it would be perceived as such by Iran and 
many of our partners around the world. The intelligence 
community believes the same thing. So do our key partners, 
including the U.K., France, and Germany.
    And this could produce one of several unintended 
consequences that far from an enhancing our security, in our 
judgment, would undermine it. First, the passage of new 
sanctions could provoke Iran to leave the talks, violate the 
JPOA, and pursue its nuclear program full tilt, reversing all 
of the benefits we have achieved under the JPOA. And I can go 
through those later.
    Second, even if Iran does not walk away or returns promptly 
to the table, its negotiators are likely to adopt much more 
extreme positions in response, making a final agreement much 
harder to achieve.
    Third and finally, if our international partners believe 
that the United States has acted prematurely through additional 
nuclear-related sanctions legislation in the absence of a 
provocation or violation by Iran, their willingness to enforce 
existing sanctions, never mind add additional sanctions later, 
in our judgment, will wane. Their support is crucial. Without 
it, the sanctions regime would be dramatically diluted.
    Up until now, we have kept countries onboard through a lot 
of hard work despite it being against the economic interest of 
many of them in large part because we have demonstrated we are 
serious about diplomacy and trying to reach an agreement that 
advances our security. If they lose that conviction, the United 
States, and not Iran, would be isolated. The sanctions regime 
could collapse, and Iran could turn on everything it turned off 
under the JPOA with no consequence.
    We can debate whether any of these things would happen, 
whether all of these things would happen. What I can tell you 
is this. Those that we believe are best placed to know, that is 
the folks who have been engaged with the Iranians, engaged with 
our international partners in these negotiations for several 
years now, that is their best judgment.
    Why run these risks and jeopardize the prospects for a deal 
that will either come together or not over the next few months? 
In our judgment, there is nothing to be gained and potentially 
lots to be lost by acting precipitously.
    As Senator Boxer noted, this is a judgment shared by many 
of our key partners. She cited Prime Minister Cameron and his 
remarks. I think you will hear the French, the Germans, and 
others make similar statements in the coming days.
    One final point. Even if we resolve the challenge posed by 
Iran's nuclear program, I want to assure you that we will 
continue to confront Iranian actions that threaten our security 
and that of our partners, including its support for terrorist 
groups, its efforts to proliferate its destabilizing activities 
in the region. We will continue to spotlight and oppose its 
violations of human rights, freedom of expression, freedom of 
religion, and we will continue to defend and build the capacity 
of our partners, from Israel to the Gulf countries, to counter 
Iranian aggression and provocations.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Blinken follows:]

         Prepared Statement of Deputy Secretary Antony Blinken

    Good morning, Chairman Corker, Ranking Member Menendez, and 
Senators. I appreciate the opportunity to discuss with you the status 
of negotiations related to Iran's nuclear program.
    It is appropriate that we are gathered here today for what will be 
this committee's first hearing this year and its first hearing under 
the new 114th Congress to discuss Iran's nuclear program. The challenge 
posed by Iran's nuclear program has long been one of our country's 
foremost national security priorities, and it has been a primary focus 
of both the Congress and the administration. The international 
community shares our serious concerns about Iran's nuclear program. 
Together with our partners in the P5+1 and the EU we have been unified 
in pursuing a comprehensive solution that lays these concerns to rest--
consistent with the President's firm commitment to prevent Iran from 
acquiring a nuclear weapon.
    It was with that challenge in mind that Secretary Kerry and our 
lead negotiator, Under Secretary Sherman, traveled to Geneva last week 
as part of our latest efforts to reach a long-term comprehensive plan 
of action with Iran that would verifiably ensure Iran's nuclear program 
will be exclusively peaceful going forward.
    Today I plan to update you on our goals for, and the status of, the 
negotiations. There are, of course, some details that I will not be 
able to discuss in an unclassified setting--the negotiations are 
ongoing and cannot be conducted in public. But I will give you as much 
detail as I can in this setting because we all understand the vital 
role Congress and this committee play in shaping U.S. policy toward 
Iran. We remain committed to continue--and when necessary, to expand--
regular consultations. We all have the same goal--to make the world a 
safer place by resolving the international community's concerns with 
Iran's nuclear program.
    We continue to believe that the best way to do that is to negotiate 
a comprehensive plan of action that, when implemented, will ensure 
that, as a practical matter, Iran cannot acquire a nuclear weapon and 
that Iran's nuclear program is exclusively peaceful.
    Any comprehensive deal must effectively cut off the four pathways 
Iran could take to obtain enough fissile material for a nuclear weapon: 
two uranium pathways, through its activities at Natanz and Fordow; a 
plutonium pathway, through the Arak heavy water reactor; and a 
potential covert pathway. It must include tight constraints and strict 
curbs on Iran's nuclear program. And finally, it must require robust 
monitoring and transparency measures to maximize the international 
community's ability to detect quickly any attempt by Iran to break out 
overtly or covertly.
    In exchange, the international community would provide Iran with 
phased sanctions relief tied to verifiable actions on its part. Such 
relief would be structured to be easily reversed so that sanctions 
could be quickly reimposed if Iran were to violate its commitments.
    We never expected this to be an easy process, and so far those 
expectations have proved correct. It is also a process that cannot be 
rushed. After 35 years without diplomatic relations, and after more 
than 10 years of attempts to put a halt to Iran's proliferation of 
sensitive nuclear activities, we are now trying to see if we can work 
through a multitude of complicated issues in order for us and the 
international community to be assured of the exclusively peaceful 
nature of Iran's nuclear program.
    Our goal is to conclude the major elements of the deal by the end 
of March and then to complete the technical details by June.
    Last week's discussions were serious, useful, and businesslike. We 
have made progress on some issues but gaps remain on others. I, or our 
lead negotiator, Under Secretary of State Wendy Sherman, would be happy 
to provide further information in a classified setting.
    Overall, however, we assess that we still have a credible chance of 
reaching a deal that is in the best interest of America's security, as 
well as the security of our allies. If Iran's leaders choose not to 
move forward, we will work with Congress to increase pressure. But 
while we remain engaged in these negotiations, it is important to 
demonstrate to our partners as well as to Iran that Washington is 
united in support of a comprehensive solution that would ensure that 
Iran does not acquire a nuclear weapon, and that it's nuclear program 
is exclusively peaceful. I know this is a goal we all share.
    The U.S. Congress has played a vital role in getting us to where we 
are today and will undoubtedly play an important role going forward. 
Sanctions were instrumental in bringing Iran to the table. But Iran's 
program continued until negotiations made the Joint Plan of Action 
(JPOA) possible. Sanctions did not stop the advance of Iran's nuclear 
program. Negotiations did, and it is in our interest not to deny 
ourselves the chance to achieve a long-term, comprehensive solution 
that would prevent Iran from acquiring a nuclear weapon.
    Let me talk about that progress we have achieved so far.
    Before the JPOA, despite an unprecedented sanctions regime, Iran's 
nuclear program was rushing toward larger enriched uranium stockpiles, 
greater enrichment capacity, the production of plutonium that could be 
used in a nuclear weapon, and ever shorter breakout time. Today, as the 
result of the constraints in the JPOA, Iran has halted progress on its 
nuclear program and it has rolled it back in key areas for the first 
time in a decade, and it has allowed us to have greater insight and 
visibility through more intrusive and more frequent inspections.
    Before the JPOA, Iran had about 200 kilograms of 20 percent 
enriched uranium in a form that could be quickly enriched into a 
weapons-grade level. It produced much of that material at the Fordow 
facility, buried deep underground. Today, Iran has no such 20 percent 
enriched uranium--zero, none. It has diluted or converted every ounce, 
suspended all uranium enrichment above 5 percent and removed the 
connections among centrifuges at Fordow that allowed them to produce 20 
percent enriched uranium.
    Before the JPOA, Iran was making progress on the Arak reactor, 
which, if it had become operational, and together with a reprocessing 
facility, would have provided Iran with a plutonium path to a nuclear 
weapon. Once fueled, the Arak facility would be challenging to deal 
with militarily. Today, Arak is frozen in place.
    Before the JPOA, Iran was enriching uranium with roughly 10,000 
centrifuges and had another roughly 9,000 installed centrifuges ready 
to bring into operation. The JPOA froze Iran's enrichment capacity and 
those 9,000 additional centrifuges are still not operating.
    Before the JPOA, inspectors had less frequent access to Iran's 
nuclear facilities. Today, the JPOA has enabled IAEA inspectors to have 
daily access to Iran's enrichment facilities and a far deeper 
understanding of Iran's nuclear program. They have been able to learn 
things about Iran's centrifuge production, uranium mines, and other 
facilities that are important to monitoring Iran's program going 
forward and to detecting any attempts to break out. And the IAEA has 
consistently reported that Iran has lived up to its commitments under 
the JPOA.
    Just as we have asked Iran to uphold its commitments under the 
JPOA, we have lived up to our commitment of providing Iran with limited 
relief--about $14 to $15 billion from the start of the JPOA through 
this June. But that relief is dwarfed by the vast amounts denied to 
Iran under the existing sanctions regime. For example, in 2014 alone, 
oil sanctions deprived Iran of more than $40 billion in oil revenue--
well over twice the estimated value of the relief under the JPOA. And 
what oil revenues Iran is allowed to generate go into heavily 
restricted accounts that now encumber more than $100 billion. Virtually 
the entire sanctions architecture remains in place. Indeed, throughout 
the existence of the JPOA, sanctions pressure on Iran has not 
decreased--it has increased.
    Congress is now considering legislation to impose additional 
sanctions on Iran, to be triggered by the failure of negotiations. I 
know that the intent of this legislation is to further increase 
pressure on Iran and, in so doing, to strengthen the hand of our 
negotiators to reach a comprehensive settlement. While the 
administration appreciates that intent, it is our considered judgment 
and strongly held view that new sanctions, at this time, are 
unnecessary and, far from enhancing the prospects for successful 
negotiations, risk fatally undermining our diplomacy and unraveling the 
sanctions regime so many in this body have worked so hard to establish.
    New sanctions are unnecessary because, as I noted a moment ago, 
Iran already is under acute pressure from the application of the 
existing sanctions regime. In recent months, that pressure has only 
grown stronger with the dramatic drop in oil prices.
    Should Iran refuse a reasonable deal or cheat on its current 
commitments under the JPOA, the Senate and House could impose 
additional measures in a matter of hours. The administration would 
strongly support such action. Iran is well aware that an even sharper 
sword of Damocles hangs over its head. It needs no further motivation.
    So new sanctions are not necessary. And their passage now would put 
at risk the possibility of getting a final deal over the next several 
months. Let me explain why.
    As part of the JPOA we also committed, within the bounds of our 
system, not to impose new nuclear-related sanctions while the JPOA is 
in effect. Absent a breach by Iran, any new sanctions enacted by 
Congress would be viewed by Iran and the international community as the 
U.S. breaking out of the understandings of the JPOA. This includes 
``trigger'' legislation that would tie the actual implementation of new 
sanctions to the failure to reach a final arrangement. Even if such 
sanctions are not, arguably, a technical violation of the JPOA, we 
believe they would be perceived as such by Iran and many of our 
partners around the world. This could produce one of several serious 
unintended consequences that, far from enhancing America's security, 
would undermine it.
    First, the passage of new sanctions could provoke Iran to walk away 
from the negotiating table, violate the JPOA and start moving its 
nuclear program forward again. Instead of keeping its uranium 
enrichment at under 5 percent, as it has since the JPOA was signed, 
Iran could start enriching again at 20 percent, or even higher. Instead 
of capping its stockpile of roughly 4 percent low enriched uranium at 
pre-JPOA levels, Iran could grow it rapidly. Instead of suspending 
substantive work on the Arak heavy water reactor, Iran could restart 
its efforts to bring this reactor on line. Instead of providing 
unprecedented access to international inspectors at its nuclear 
facilities, it could curtail/reduce IAEA access, inhibiting our ability 
to detect a breakout attempt. Instead of limiting work on advanced 
centrifuges, it could resume its efforts to increase and significantly 
improve its nuclear capabilities in a relatively short timeframe.
    Second, even if Iran does not walk away or promptly returns to the 
table, its negotiators are likely to adopt more extreme positions in 
response, making a final deal even more difficult if not impossible to 
achieve.
    Third, if our international partners believe that the United States 
has acted prematurely by adding new sanctions now in the absence of a 
provocation or a violation by Iran--as most countries surely would--
their willingness to enforce the exiting sanctions regime or to add to 
it in the event negotiations fail will wane. Their support is crucial. 
Without it, the sanctions regime would be dramatically diluted. Up 
until now, we've kept other countries on board--despite it being 
against their economic interest--in large part because we've 
demonstrated we are serious about trying to reach a diplomatic 
solution. If they lose that conviction, the United States, not Iran, 
would be isolated, the sanctions regime would collapse and Iran could 
turn on everything it turned off under the JPOA without fear of 
effective, international sanctions pressure in response.
    We can debate whether any or all of these things would happen. What 
I can tell you today is that those who are best placed to know--the 
diplomatic professionals who have been leading these negotiations and 
dealing directly with the Iranians and our international partners for 
the past several years--believe that the risks are real, serious, and 
totally unnecessary. That is their best judgment. Why run those risks 
and jeopardize the prospects for a deal that will either come 
together--or not--over the next 2 months? Why not be patient for a few 
more months to fully test diplomacy? There is nothing to be gained--and 
everything to be lost--by acting precipitously.
    That judgment is shared by our closest allies. Just this past week, 
Prime Minister Cameron could not have been clearer: ``. . . It is the 
opinion of the United Kingdom that further sanctions or further threat 
of sanctions at this point won't actually help to bring the talks to a 
successful conclusion and they could fracture the international unity . 
. . which has been so valuable in presenting a united front to Iran.''
    So we must continue to work together. We have briefed Congress 
extensively and frequently on Iran talks over the past year. We have 
had, and will continue to have, extensive discussions with Congress 
about the status of the P5+1 negotiations. We will continue to keep 
Congress fully informed about these negotiations through a combination 
of open hearings and closed briefings. I look forward to continuing 
that conversation with all of you and your colleagues today, and in the 
remaining months.
    Before I finish, I want to emphasize that, even as we engage Iran 
on the nuclear issue and continue to apply pressure under the existing 
sanctions regime, we also continue to hold it accountable for its 
actions on other fronts. We continue to insist that Iran release Saeed 
Abedini, Amir Hekmati, and Jason Rezaian from detention so they can 
come home to their families. Likewise, we continue to call on Iran to 
work cooperatively with us so that we can find Robert Levinson and 
bring him home. This March will unfortunately mark 8 years since his 
disappearance on Iran's Kish Island. Secretary Kerry and Under 
Secretary Sherman have spoken to Iran about our concerns for the fate 
of these U.S. citizens as recently as last week, and will continue to 
do so until all of them are back home.
    We also continue to raise our voice in support of the talented and 
brave Iranian people, and support their desire for greater respect for 
universal human rights and the rule of law. We have spoken up clearly 
and consistently against human rights violations in Iran and have 
called on the Iranian Government to guarantee the rights and freedoms 
of its citizens. We have done this in reports requested by this 
legislative body, such as the Human Rights Report, through statements 
on individual cases where our voice can support those inside Iran, and 
via international organizations, such as our work to support the 
mandate of the U.N. Special Rapporteur on human rights in Iran. We have 
also used our Virtual Embassy Tehran online platform to promote freedom 
of expression and respect for human rights, and our programming to 
support the rights of average citizens in Iran. Regardless of the 
outcome of ongoing nuclear negotiations with Iran, we will not relax 
our efforts to hold Iran accountable for its human rights violations.
    We will also continue to confront Iran's destabilizing activities, 
promotion of sectarian divisions, and support for nonstate actors and 
terrorists throughout the Middle East. Our positions on Palestinian 
terrorist groups, such as Hamas and the Palestinian Islamic Jihad, and 
Lebanese Hezbollah, for example, have in no way changed--and will not 
change. We have very clearly and consistently spoken out against these 
designated foreign terrorist organizations, as well as Iran's support 
for them. And we will continue to find ways to support those in the 
region who are working to counter the destabilizing actions of these 
groups--including building partner capacity--as we simultaneously 
reinforce the robust regional security architecture we've already 
built. Similarly, we have called out Iran for its support of the brutal 
regime of Bashar al-Assad in Syria. We hope that Iran soon recognizes 
that there is much more to be gained through constructive engagement in 
the region and promotion of inclusivity than through disruptive 
policies.
    The challenges posed by Iran are numerous and complicated. We have 
confronted them, and will continue to do so. On the challenge of Iran's 
nuclear program, we face a historic opportunity to resolve this concern 
through clear eyed, principled, and disciplined diplomacy. We do not 
yet know if diplomacy will be successful--as the President has stated 
the chances are probably less than 50-50--but it is of the utmost 
importance that we give it every opportunity to succeed.

    The Chairman. Thank you.
    Mr. Cohen, Mr. Blinken was very fulsome in his comments, 
about double over. If you could sort of keep it to 5, it would 
be good.
    Thank you.

STATEMENT OF HON. DAVID S. COHEN, UNDER SECRETARY FOR TERRORISM 
   AND FINANCIAL INTELLIGENCE, U.S. DEPARTMENT OF TREASURY, 
                         WASHINGTON, DC

    Mr. Cohen. Certainly. Good morning, Chairman Corker, 
Ranking Member Menendez, distinguished members of the 
committee.
    Thank you for the invitation to appear before you today, 
and as this is likely my last appearance before this committee 
before I assume my new duties, I want to thank the former 
Chairman Menendez, current Chairman Corker, and members of the 
committee for the courtesy that has been shown to me over the 
past several years. I appreciate it.
    There is no higher national security priority than ensuring 
Iran does not acquire a nuclear weapon. And President Obama has 
made clear that we will do everything in our power to prevent 
that from happening.
    For us at Treasury, that has meant working within the 
administration, with Congress, and with international partners 
to impose the most powerful sanctions in history And in many 
respects, the sanctions have worked exactly as designed. They 
have driven Iran to the negotiating table because Iran's 
leaders know that relief from sanctions can come only in 
exchange for taking steps that will guarantee that Iran cannot 
produce a nuclear weapon.
    As we sit here today, no one knows whether the negotiations 
ultimately will yield a comprehensive deal. But we, like you, 
are dedicated to testing fully the diplomatic path. As we do 
so, Iran's economy remains subject to intense pressure from 
sanctions.
    Under the Joint Plan of Action, which has been in effect 
for a little over a year now, Iran halted progress on its 
nuclear program, rolled it back in key respects, and allowed 
unprecedented inspections of its enrichment facilities. In 
exchange, Iran received limited and reversible relief from some 
nuclear-related sanctions.
    Importantly, the JPOA left in place the full architecture 
of our financial, banking, oil, and trade sanctions; our 
terrorism and human rights sanctions; and our domestic embargo. 
This means that Iran is still cut off from the international 
financial system. It is unable to export even half the oil it 
was exporting in 2012, and it is barred by sanctions from 
freely accessing most of its oil revenues and foreign reserves.
    These sanctions are not just words on the books. We 
vigorously enforce them. Since the signing of the JPOA in 
November 2013, we have designated nearly 100 Iran-related 
targets and imposed over $350 million in penalties for 
sanctions evasion. Put simply, Iran still is not open for 
business, and its economy remains in a deep hole.
    Let me cite just a few metrics. In 2014 alone, our 
sanctions deprived Iran of over $40 billion in oil revenues. 
That is well over twice the total estimated value to Iran of 
the JPOA sanctions relief. Altogether since 2012, our oil 
sanctions have cost Iran more than $200 billion in lost exports 
and oil proceeds it cannot access.
    Iran's currency, the rial, has depreciated by almost 16 
percent just since the signing of the JPOA and 56 percent since 
January 2012. And Iran's economy today is 15 to 20 percent 
smaller than it would have been had it remained on its pre-2012 
growth trajectory.
    Because of the scope and intensity of the sanctions Iran 
currently is subject to and because of the economic pressure 
those sanctions continue to apply, Iran is negotiating with its 
back against the wall. Accordingly, we see no compelling reason 
to impose new sanctions now, even on a delayed trigger.
    Indeed, we think new sanctions legislation is more likely 
to be counterproductive than helpful in the negotiations. 
Today, Iran's nuclear program is frozen, and its economy--and 
thus its negotiating team--remains under enormous pressure 
because we have been able to hold together the international 
sanctions coalition. Enacting new sanctions now threatens to 
unravel this.
    If Congress enacts new sanctions now and the negotiations 
ultimately prove unsuccessful, our international partners may 
blame us, not Iran, for the breakdown in the talks. Overall 
support for the sanctions regime would then decline, making it 
more difficult to maintain or to intensify sanctions pressure.
    And if a breakdown in talks led to the demise of the JPOA, 
we would lose the additional insight into Iran's nuclear 
program and the restrictions on development that the JPOA has 
given us.
    So make no mistake, this administration understands and 
embraces the power of sanctions. Sanctions are a key component 
of many of our most important national security initiatives. We 
are not sanctions doubters.
    But neither do we believe that layering on additional 
sanctions is always the right move. Sanctions are one tool in 
our toolkit, alongside diplomacy, military action, and the 
myriad other ways that we project power.
    If diplomacy does not succeed, the President said he ``will 
be the first one to come to Congress and say we need to tighten 
the screws.'' But in our view, now is the time to give 
diplomacy every chance to succeed, not to create a new 
sanctions tool.
    Thank you, and I look forward to address your questions.
    [The prepared statement of Mr. Cohen follows:]

           Prepared Statement Under Secretary David S. Cohen

    Good morning. Chairman Corker, Ranking Member Menendez, and 
distinguished members of the committee, thank you for the invitation to 
appear before you to discuss the state of sanctions on Iran, and 
whether our efforts to achieve a diplomatic solution to one of the most 
difficult and enduring national security problems that we face--Iran's 
nuclear program--would be advanced if Congress were to enact new 
sanctions legislation at this time.
    I will focus my testimony today on the robust international 
sanctions regime that helped bring Iran to the negotiating table, the 
intense pressure that sanctions continue to place on the Iranian 
economy, and our continued vigorous enforcement of those sanctions over 
the course of the Joint Plan of Action (JPOA). And I will explain why 
new sanctions legislation now--even if implementation were delayed--
would more likely hinder, rather than advance, the prospects for a 
diplomatic solution that verifiably prevents Iran from obtaining a 
nuclear weapon.
    At the outset, let me reiterate that no issue is of greater concern 
or urgency to the United States, and no issue occupies more of the time 
and attention of my team at the Department of the Treasury, than 
ensuring that Iran does not acquire a nuclear weapon. Iran in 
possession of a nuclear weapon would directly threaten U.S. and 
international security, increase the risk of nuclear terrorism, 
undermine the global nonproliferation regime, and risk setting off an 
arms race in the Middle East. From the outset of his administration, 
President Obama has made clear that we will do everything in our power 
to prevent Iran from obtaining a nuclear weapon.
    For us at Treasury, that has meant working within the 
administration, with Congress, and with partners around the world to 
impose the most effective set of financial and economic sanctions in 
history. The sanctions have impeded Iran's ability to acquire material 
for its nuclear program, isolated it from the international financial 
system, drastically slashed its oil exports, deprived it of access to a 
sizeable portion of its oil revenues and foreign reserves, and severely 
constrained its overall economy.
    In many respects, the global sanctions regime has achieved exactly 
what it was designed to do: encourage Iran to come to the negotiating 
table, not to posture, pontificate, and procrastinate, but to engage in 
serious diplomacy over its nuclear program. Iran is negotiating because 
it knows that relief from the sanctions can come only in exchange for 
taking concrete and verifiable steps that will guarantee that it cannot 
produce a nuclear weapon.
    As this committee knows, those negotiations are ongoing. They began 
when we negotiated the JPOA, which was reached on November 2013. In 
November 2014, the P5+1 and Iran decided to extend the talks for 
another 7 months. We agreed to the extension because our negotiators 
have made meaningful progress, and because it takes time to conduct the 
highly technical deliberations necessary to get a comprehensive 
solution that will cut off each of Iran's possible pathways to a 
nuclear weapon.
    We may ultimately reach a comprehensive solution; we may not. The 
President last week reiterated that the chances that we get a deal are 
probably less than 50 percent. But we, like you, are committed to 
testing fully the diplomatic path.
    That is why we have continued to maintain throughout the JPOA 
period the intense financial and economic pressure that brought Iran to 
the table in the first place. And that is also why we must give our 
negotiators the time and space they need to pursue the possibility of a 
comprehensive solution, without undercutting their efforts, fracturing 
the coalition, or, with the best of intentions, sending mixed signals 
about the interest of the United States in a diplomatic resolution.
   the international sanctions regime remains robust and vigorously 
                                enforced
    When Iran and the P5+1 concluded the JPOA in November 2013, Iran 
committed to halt progress on its nuclear program, roll it back in 
important respects, and provide unprecedented access to, and 
inspections of, its enrichment facilities. In exchange, Iran received 
limited, targeted, and reversible relief from some nuclear-related 
sanctions.
    Importantly, the JPOA left in place the full architecture of our 
financial, banking, oil, and trade sanctions; our sanctions focused on 
Iran's support for terrorism and its violation of human rights; and our 
own domestic embargo.
    I'd like briefly to review the breadth of that sanctions 
architecture--painstakingly designed by the administration, Congress, 
and our international partners over many years--because it provides an 
important backdrop to any discussion of imposing additional sanctions.
    First, Iran remains subject to sweeping sanctions by the United 
States and our allies on its financial and banking sectors:

  <bullet> Iran continues to be almost completely isolated from the 
        international financial system, with its most significant 
        private and state-owned banks, including its central bank, 
        subject to U.S. sanctions and cut off from international 
        payment messaging systems.
  <bullet> Any foreign bank that transacts with designated Iranian 
        banks--or with most other designated Iranian individuals or 
        entities--can lose access to the U.S. financial system. That 
        means losing the ability to facilitate transactions in the 
        dollar, a death penalty for any international bank.
  <bullet> It remains sanctionable to provide physical U.S. dollar 
        banknotes to the Iranian Government.

    Second, our sanctions have targeted Iran's key economic engine, its 
energy sector:

  <bullet> Our sanctions have drastically driven down Iran's oil 
        exports. In 2012, Iran was exporting approximately 2.5 million 
        barrels of oil a day to some 20 countries; today, it exports 
        only around 1.1 million barrels, and only to six countries. 
        Under the JPOA, moreover, Iran's six remaining oil customers 
        may not exceed their current purchase levels.
  <bullet> Additionally, payment for oil purchased from Iran by these 
        six countries must be paid into accounts that can be used only 
        to facilitate humanitarian transactions or bilateral trade 
        between the importing country and Iran. With the exception of 
        funds released under the JPOA, this Iranian oil revenue can 
        neither be brought back to Iran nor transferred to third 
        countries. And because the accounts into which Iran receives 
        oil revenue already hold more funds than Iran spends on 
        bilateral or humanitarian trade, the effective value of those 
        oil sales to Iran is far less than 100 cents on the dollar.
  <bullet> We also have broad authorities targeting the provision of 
        goods and services to the Iranian energy sector or investment 
        in that sector. Any entity that is itself part of Iran's energy 
        sector is subject to sanctions.
  <bullet> Because Iran cannot access Western technology and services, 
        and because it has been forced to sharply cut its oil exports, 
        we have also seen a significant decline in its production of 
        oil. Independent experts report that Iran produced fewer than 
        2.8 million barrels a day in December, down from almost 3.6 
        million barrels a day in 2011.

    Third, there are sanctions on other important sectors of the 
Iranian economy. We have broad tools that target Iran's petrochemical, 
insurance, ports, shipping, and shipbuilding sectors, as well as its 
trade in certain crucial metals and industrial materials.
    Fourth, beyond these sector-focused sanctions, we have a range of 
other sanctions authorities that we use to intensify the pressure on 
the Iranian regime.

  <bullet> It is sanctionable to act on behalf of the Government of 
        Iran, as well as to provide the Government of Iran or the 
        Iranian individuals and entities on OFAC's sanctions list with 
        financial, material, or technological support.
  <bullet> Under our counterterrorism, counterproliferation, human 
        rights, and other Iran-related authorities, we have imposed 
        sanctions on more than 700 Iran-related individuals and 
        entities, almost 15 percent of which have been designated since 
        the signing of the JPOA. And importantly, anyone who conducts 
        business with these individuals or entities, or any other 
        designated Iranian entity, is at risk of being targeted for 
        sanctions.

    Last but not least, broad limitations on U.S. trade with Iran 
remain in place, meaning that Iran continues to be shut out of the 
world's largest and most vibrant economy and remains unable to access 
the U.S. financial system.
    These sanctions are not just words on the books--we vigorously 
enforce them. Over the course of the JPOA, we have repeatedly 
reaffirmed the point, in word and deed, that Iran is not open for 
business.
    Since the signing of the JPOA, the United States has sanctioned 
nearly 100 individuals and entities that were helping Iran evade our 
sanctions, aiding Iranian nuclear and missile proliferation, supporting 
Iranian-sponsored terrorism, or carrying out Iran-related human rights 
abuses. Nine of those designations came less than a month ago, on 
December 30, including sanctions on six individuals and one entity that 
were working with the Iranian Government to obtain U.S. dollars. We 
have also imposed more than $350 million in penalties on those who have 
violated the sanctions. These targeting and enforcement efforts will 
continue throughout the course of the JPOA extension.
    We have also engaged extensively with foreign governments and 
companies to make clear the limited scope of the JPOA's sanctions 
relief and our continued vigilance against any breaches of our 
sanctions. These outreach efforts, while quieter than enforcement 
actions, are equally critical to our efforts to pressure Iran.
    And as we sit here, members of my staff are poring over reams of 
financial intelligence searching for signs of sanctions evasion, 
working with banks and businesses to help them better comply with 
sanctions, and engaging directly with foreign governments, foreign 
regulators, foreign businesses, and individuals around the world to 
make certain that they understand the consequences of violating our 
sanctions. And although I will depart the Treasury Department in a few 
weeks, everyone should rest assured that vigorous enforcement of our 
sanctions will continue unabated.
    Through all of these efforts, we make it abundantly clear to Iran 
that its only hope for real relief from sanctions is to enter into a 
comprehensive arrangement that guarantees that it cannot produce a 
nuclear weapon.
                    the state of the iranian economy
    In light of the extensive sanctions that remain firmly in place and 
are being vigorously enforced, it should come as no surprise that the 
Iranian economy remains in a deep hole.
    When I last appeared before this committee in July, I suggested 
three metrics by which to judge Iran's economic distress--its oil 
revenues, the value of its currency, and its foreign reserves. By all 
three measures, Iran continues to be worse off today than it was when 
it entered into the JPOA.
    Revenues: The overall health of the Iranian economy and the Iranian 
Government's balance sheet depend heavily on oil revenues, and our 
sanctions have cut deeply into those revenues. As I noted earlier, our 
sanctions have caused Iran's oil exports to drop almost 60 percent, 
from approximately 2.5 million barrels per day in 2012 to approximately 
1.1 million today. Because of this dramatic decline in sales, in 2014 
alone our oil sanctions deprived Iran of over $40 billion, which is 
well over twice the total estimated value to Iran of the limited 
sanctions relief in the JPOA--and that is money Iran can never recover, 
because it represents sales that were not made. Altogether, since 2012, 
our oil sanctions have denied Iran access to more than $200 billion in 
lost exports and funds it cannot freely use.
    Furthermore, for the 7-month period of the JPOA extension, from 
December 2014 to June 2015, we estimate that Iran will be forced to 
endure another $15 billion in lost sales. Moreover, of the estimated 
$12 billion that Iran may continue to earn in oil revenue during this 
JPOA extension, our sanctions mean that Iran will only be able to 
access a limited amount of this revenue, since much of it will remain 
restricted in overseas accounts.
    Meanwhile, the current sustained decline in oil prices is, in the 
words of Iranian officials, imposing an additional set of sanctions on 
Iran. Over the past year, the average price of a barrel of oil has 
dropped by more than 50 percent; it is trading today at slightly under 
$50 per barrel. If oil prices remain at current levels, Iran will lose 
an additional $11 billion in oil revenue from what it was expecting to 
take in during this most recent 7-month extension of the JPOA.
    All of this is creating havoc with Iran's budget. For its current 
fiscal year (March 2014 to March 2015), Iran assumed that oil would 
sell for $100 per barrel. It has not, which has cut into its revenues 
for this year. And next year will be even bleaker.
    In December, President Rouhani proposed a budget for the coming 
fiscal year that assumed oil would sell for $72 per barrel and that 
included proposals to cancel subsidies, raise taxes, reduce 
contributions to its sovereign wealth fund, and scrap projects. But 
that draft budget already has proved overly optimistic, and just last 
week, the Iranian Finance and Economy Minister revealed that Iran is 
revising downward its budget because it is now assuming a price of $40 
per barrel. This will likely result in more spending cuts, fewer 
services, and higher taxes.
    Rial: Iran's currency, the rial, has depreciated by about 56 
percent since January 2012, including a decline of about 16 percent 
just since November 2013, when the JPOA was signed. This makes imported 
goods more expensive, disrupts plans for investment in Iran, causes the 
general inflation rate to rise, and hurts the Iranian economy by 
causing significant uncertainty about future prices.
    Reserves: The vast majority of Iran's approximately $100 billion in 
foreign currency reserves remain inaccessible or restricted by 
sanctions. Iran can use most of this money only to pay for permissible 
bilateral trade between the six remaining oil importing countries and 
Iran, as well as for humanitarian purposes. Without hard currency 
reserves, Iran is limited in its ability to intervene in its currency 
market to stabilize the rial, and it also becomes more difficult to 
conduct foreign trade.
    If you take a step back and look at Iran's broader economy, the 
picture is no less dismal. Despite some signs of an uptick in Iran's 
GDP, Iran's economy is performing far below its potential. Iran's GDP 
shrank by roughly 9 percent in the 2 years ending in March 2014, and 
its economy today is 15 to 20 percent smaller than what it would be had 
it remained on its pre-2012 growth trajectory. Moreover, at 17 percent, 
Iran's inflation rate is one of the highest in the world.
    The dire predictions we heard that the limited sanctions relief in 
the JPOA would lead to a collapse of the sanctions regime and reduce 
pressure on Iran clearly have not materialized. The sanctions structure 
has held up just fine. We estimate that the total value to Iran of the 
JPOA sanctions relief, which comes largely from enabling Iran to access 
some of its own restricted oil revenues held overseas, will add up to 
approximately $14 to $15 billion by June 2015. This relief pales in 
comparison to the significant revenues that Iran has forgone as a 
result of sanctions, and it cannot make up for Iran's systemic economic 
weaknesses and imbalances.
    Put simply, Iran's economy is significantly impaired, and it will 
remain that way as long as our sanctions are in place--and Iran's 
leaders know this. Thanks to cooperation on the international stage 
between the United States and its allies, and the joint work of 
Congress and this administration, Iran is negotiating with its back 
against the wall. So long as we continue to maintain our current 
pressure on Iran--and we are committed to doing just that--its leaders 
have every incentive to come to a comprehensive solution and resolve 
this issue peacefully.
          additional sanctions legislation now is unnecessary 
                        and potentially harmful
    Because of the scope and intensity of the sanctions Iran currently 
is subject to, and because of the economic pressure those sanctions 
continue to apply, we believe that new sanctions are not needed at this 
time. To the contrary, new sanctions at this time--even with a delayed 
trigger--are more likely to undermine, rather than enhance, the chances 
of achieving a comprehensive solution, and are more likely to reduce, 
rather than increase, the chances of sustaining and increasing pressure 
on Iran if the negotiations fail.
    In our efforts to prevent Iran from obtaining a nuclear weapon, 
sanctions were never an end in themselves. Sanctions alone were never 
going to stop Iran from installing centrifuges or enriching uranium. 
Instead, sanctions always were intended principally as a means to 
persuade Iran to negotiate in earnest.
    And that has worked. We now have a situation in which Iran is 
engaged in a serious negotiation with the P5+1, while progress on its 
nuclear program is frozen, certain aspects of the program have been 
rolled back, and we have unprecedented insight into its nuclear 
activities. And, furthermore, its economy remains under enormous 
pressure, in large measure because we have been able to hold together 
the international coalition that has joined us in imposing crippling 
sanctions.
    Enacting additional sanctions legislation at this point threatens 
to unravel this situation. In our judgment--a judgment that is shared 
by our international partners--new sanctions legislation now is 
substantially more likely to impede progress at the negotiating table 
than to induce Iran to offer additional concessions.
    Moreover, if Congress enacts new sanctions now and the negotiations 
ultimately prove unsuccessful, our international partners may hold us, 
not Iran, responsible for the breakdown in the talks. While it is 
difficult to predict exactly what would then unfold, it is quite 
possible that some current members of the international sanctions 
coalition--whose companies are eager to resume business with Iran, but 
have been held off--would reevaluate their cooperation with us on 
pressuring Iran, making it more difficult to maintain existing 
pressure. If overall support for the sanctions regime declined, it also 
would make it more difficult to intensify sanctions pressure. Finally, 
if a breakdown in talks led to the demise of the JPOA, we would lose 
the additional insight into Iran's nuclear program and restrictions on 
development that the JPOA has given us.
    In our view, these risks make new sanctions legislation inadvisable 
at this moment. But even putting aside the risks, we see no compelling 
reason to impose new sanctions now, considering the extent to which 
Iran already faces substantial financial and economic pressure.
    This conclusion is reinforced, moreover, by the fact that this 
Congress and this administration would move quickly to enact new 
sanctions if Iran were to walk away from the talks or if we concluded 
that a comprehensive deal was no longer within reach. As the President 
said just last Friday, ``if Iran ends up ultimately not being able to 
say yes, if they cannot provide us the kind of assurances that would 
lead [us] to conclude that they are not obtaining a nuclear weapon, 
then we're going to have to explore other options,'' including new 
sanctions legislation. As has been the case with prior sanctions 
legislation, that legislation could go into effect in a matter of days. 
The Iranians know this, just as they know that the President has 
``consistently said [that] we leave all options on the table.''
    Make no mistake: This administration understands and embraces the 
power of sanctions. Sanctions are a key component of many of our most 
important national security initiatives, from our efforts to prevent 
Iran from obtaining a nuclear weapon to our efforts to degrade and 
ultimately destroy the Islamic State in Iraq and Levant. We are not 
sanctions doubters.
    But neither do we believe that layering on additional sanctions is 
always the right move. Sanctions are one tool in our toolkit, as is 
diplomacy, as is military action, as are the myriad other ways that we 
project U.S. power to advance our interests, protect our allies, and 
defend ourselves. If diplomacy does not succeed, as the President said, 
he ``will be the first one to come to Congress and say we need to 
tighten the screws.'' But in our view, now is the time to give 
diplomacy every chance to succeed, not to create a new sanctions tool.
                               conclusion
    In closing, I want to assure this committee that as we seek a 
comprehensive solution with Iran, the Treasury Department, like the 
rest of this administration, is fully committed to maintaining intense 
financial and economic pressure on Iran. We have not, and we will not, 
let up one iota in our sanctions enforcement efforts, and we will 
continue to take action against anyone, anywhere, who violates or 
attempts to violate our sanctions.

    The Chairman. Thank you both.
    And again, I just want to make sure everybody understands 
this committee is not the committee that deals with sanctions. 
And I know that the witnesses certainly have the opportunity to 
say anything they wish in testimony.
    That is not the issue that is before us.
    I am sure you may get some questions about things other 
than Iran today, and people will use this venue for that. But I 
would just like to ask this question of Mr. Blinken. Do you 
believe Congress has any role at all to play in these 
negotiations? And with a short answer, if you would?
    Mr. Blinken. Yes, I do, Mr. Chairman. In several ways.
    First, we would not be where we are without the role that 
Congress has already played. I think the sanctions that have 
been imposed to date are what brought Iran to the table, and 
our ability to bring the international community along has been 
critical to that endeavor.
    Second, I think it is absolutely vital that we remain in 
close consultation with you as the negotiations proceed.
    We have had the opportunity in various closed sessions and 
briefings to do that. We want to continue that.
    Finally, if we get to the endgame and if we do get a 
resolution, in our judgment, the best way to ensure that Iran 
complies with its obligations would be to suspend the existing 
sanctions, not end them, to test Iran's compliance.
    And only then, and obviously, Congress would have to play a 
lead role in this, to actually end the sanctions.
    So, all along, from the beginning to where we are now, to 
an agreement, if we reach one, Congress' role is central.
    The Chairman. Well, thank you.
    I think one of the things that we all know is when the 
sanctions were put in place, we gave the administration some 
national security waivers, and you have utilized those. I think 
all of us also know that once you suspend these in more depth 
and you agree to do that with the P1+5, in essence, what is 
going to happen is the entire regime is going to fall apart.
    And so, I sent you some legislation--I am very disappointed 
you did not address that today in your opening comments--that 
would just allow us--we do not want to do something that 
infringes upon getting to a good deal. And so, we have sought 
to figure out some way for Congress to be able to weigh in 
before you dismantle, before you dismantle over a longer period 
of time with this national security waiver the entire regime.
    We have asked is it appropriate for us to at least be able 
to weigh in since we did, in fact, put those sanctions in 
place? So I will just ask you this. Do you believe that 
Congress should have the ability to vote up or down on any 
agreement in the same framework that we do with 123 agreements, 
which we have done 27 times on our civil deals? Do you not 
think this rises to that level of importance to our Nation? And 
would you oppose this body taking up legislation to deal with 
that in an up-or-down vote on the Senate floor?
    Mr. Blinken. Thank you, Mr. Chairman.
    I have had an opportunity to look at what you are 
proposing, and let me say at the outset, first of all, how much 
we very appreciate your leadership on this and the intent of 
what you are proposing. And as someone who, as you alluded to 
before, worked on this committee for 6 years, I also fully 
understand the desire for a Congress to have some kind of up-
or-down vote on whatever is agreed to.
    From where I sit now, I think you will also understand the 
position of the administration--for that matter, any 
administration, Republican or Democrat--on the importance of 
maintaining the Executive prerogative to conclude agreements 
that advance our national security interests and do not require 
formal congressional approval. There is a concern that this 
could set a precedent for future executive branch action.
    This, to us, would be, I think, a unique arrangement. It 
will not be a treaty or other type of international agreement 
where all parties are required to take similar actions 
themselves. It will not be like an arms control agreement that 
imposes obligations on the United States and our nuclear 
weapons policy. And it is not exactly akin to a 123 agreement 
because in this case we have multiple partners at the table on 
an issue obviously of tremendous complexity.
    Rather, this would be the international community putting 
strong limits on Iran's nuclear program and Iran agreeing to 
adhere to those limits. But as I said earlier, just as Congress 
played a key role in getting us here----
    The Chairman. So if I could, I think the answer is ``No.'' 
So let me--you know, we could easily deal with this by just 
passing legislation that does away with national security 
waivers. So----
    Mr. Blinken. Mm-hmm.
    The Chairman [continuing]. Then you would have to come to 
us.
    Mr. Blinken. Yes.
    The Chairman. So I do not understand. You know, you have 
talked about the sanctions piece. I have talked to our French 
negotiators directly. I talked to our U.K. negotiators 
directly. I talked to Prime Minister Cameron directly. I talked 
last night at length in my office to the negotiator on behalf 
of the European Union.
    I was in Israel this weekend, talked to the intelligence 
agencies there. I talked to the Prime Minister. I have met no 
one who believes that us weighing in would do anything to 
destabilize these negotiations. As a matter of fact, many have 
said knowing that Congress has to approve the deal would be a 
great backstop for the administration to strengthen their hand, 
just as the negotiators in Iran continue to refer to the 
hardliners and to Khamenei, the spiritual--the leader, the 
Supreme Leader.
    And I do not understand why--I mean, again, we could just 
do away. We were generous in the passage of these sanctions 
giving you a security waiver. We could actually just do away 
with that, and you would have to come to us.
    So why would you oppose Congress weighing in on an issue of 
this importance? And is it hollow for you to say that you want 
this to pass muster or Secretary Kerry to say this should pass 
muster and yet continue to stiff-arm, every effort to be pushed 
away. Congress, who represents more fully this Nation than the 
negotiators, not having the ability to weigh in on this deal.
    Mr. Blinken. Mr. Chairman, let me suggest a few concerns 
that could materialize. First, in terms of the negotiations 
themselves, the knowledge that there would be very early on 
this kind of vote, in our judgment, could actually undermine 
the credibility of the commitments we would make in the context 
of negotiations to suspend, not end----
    The Chairman. Does the Iranian Parliament not need to weigh 
in on some of the agreements that Iran is putting in place?
    Mr. Blinken. Under their laws, they may be required to. 
That is correct.
    The Chairman. Okay. So, so on one hand, we would negotiate 
in such a way as we know that the Supreme Leader could try to 
influence the Iranian Parliament to go against what they may 
agree to, and yet you would say here it is not important for 
the greatest deliberative body in the world to be able to weigh 
in on this issue.
    Matter of fact, the body that actually put together this 
regime that the entire international community is building 
these negotiations off of.
    Mr. Blinken. Let me suggest two things. First, there is a 
concern that if a judgment is reached immediately, yea or nay, 
on this, it may be too soon to judge whether Iran, in fact, has 
complied with its commitments.
    You know, if Congress had been asked to vote on the interim 
agreement in the days after it was reached, I suspect many who 
now believe that the agreement has produced very strong results 
for our security initially were skeptical, might well have 
voted it down. I think giving the Iranians time to demonstrate 
clearly to you and to us that they are making good on their 
commitments would make sense.
    Second, I actually think our leverage is enhanced and 
Congress' leverage is enhanced if we suspend sanctions 
initially if we get an agreement, and then, once Iran has 
demonstrated that it is making good on its commitments, 
Congress acts and takes the actions necessary. I think we have 
stronger leverage doing that than pronouncing ourselves 
immediately until we see whether Iran is making good on its 
commitments.
    The Chairman. Well, my time is up. But I would support a 
series of votes, if that is what you are saying. I would 
support an initial vote on the deal as a whole, and I think 
Congress would be more than glad to work with you on a series 
of votes as you move along.
    I will say, Mr. Blinken, after having served on this 
committee, and after you all spending incredible amounts of 
time dissing the sanctions regime, which we are not focused on, 
we are trying to find a constructive way for Congress to play 
its rightful role in these negotiations. And I am very 
disappointed that, in essence, what the administration is 
saying is we really do not want--even though Congress put us in 
this place, we really do not want Congress to play a role in 
one of the most important geopolitical agreements that may take 
place during this administration.
    With that, Ranking Member Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    You know, I have to be honest with you. The more I hear 
from the administration and its quotes, the more it sounds like 
talking points that come straight out of Tehran. And it feeds 
into the Iranian narrative of victimization when they are the 
ones with original sin--an illicit nuclear weapons program 
going back over the course of 20 years that they are unwilling 
to come clean on.
    So I do not know why we feel compelled to make their case 
when, in fact, do you dispute any of the things I said in my 
opening statement about actions that they have taken as it 
relates to the U.N. monitors, as it relates to fueling that 
rod, as it relates to those other elements? Do you dispute any 
of those? Just yes or no.
    Mr. Blinken. Mr. Ranking Member, ``No.'' I think you are 
largely correct.
    Senator Menendez. Okay. So then the bottom line is they get 
to cheat in a series of--I will call it cheat. You will not. 
But they get to cheat in a series of ways and we get to worry 
about their perceptions. To quote from your testimony, and I 
will quote directly, ``Even if such sanctions are not arguably 
a technical violation of the Joint Plan of Action, we believe 
they would be perceived as such by Iran.''
    Now, so we are worried about their perceptions, but our 
perceptions of what they are doing to advance their nuclear 
interests can be just clearly swept underneath the rug. And I 
also think it is important, reading from your testimony, to put 
the Joint Plan of Action in the appropriate context.
    You say, ``Instead of limiting work on advanced 
centrifuges,'' referring to Iran, ``it could resume its efforts 
to increase and significantly improve its nuclear capabilities 
in a relatively short timeframe.'' So let us be honest about 
what the Joint Place of Action is. It is a freeze. It is a 
freeze that scientists that have come before this committee 
have said if they, in fact, decide to proceed and not make a 
deal, they need about 3 months.
    Now what, what--Mr. Chairman, I do not know that members of 
the audience get to participate here. But they need about 3 
months.
    Now I am not a scientist, but I will accept their testimony 
as pretty much substantive as to where they need to go. Any 
sanctions that we have imposed have taken a minimum 6 months to 
give lead time to the world and to companies that this is now a 
sanctionable item. So that puts us beyond the timeframe if they 
make a decision to move in a different direction.
    And let us be honest that at one time maybe, but now the 
Iranians do not believe that there is a credible use of 
military force on the table, should they not make a deal and 
should they move to break through on nuclear capabilities for 
weaponization. So, you know, you are telling the committee 
then, and you can look us straight in the eye and say that 
prospective sanctions that do not take place until July--well 
after the period of time of not just a framework--because I 
have never been able to get my hands around your March 
framework, what that really means.
    I have been told there is not even going to be a written 
document to that effect. A March framework, that takes place in 
July after a deal has either been consummated or not and would 
only take place if a deal has not been consummated and even 
with Presidential waivers at that period of time, is somehow 
going to make the Ayatollah walk away from a deal that he 
thinks is in his country's or his best interest to have anyhow.
    That is tough to believe in. It is just--it defies common 
sense that if I want to make a deal that something you are 
going to do that does not affect my ability to make that deal 
is going to make me walk away from a deal that I find is in my 
interest anyhow. That is just not common sense.
    So I get that you are all hung up on the sanctions thing, 
and I get that there is--you know, you talk about perception, 
that it is not necessarily a violation, but it will be 
perceived as such. So we have to worry about all of the Iranian 
perceptions, but we can just swallow all of what they are doing 
independently.
    So let me ask you this: Is it not true that even the deal 
that you are striving toward is not to eliminate any Iranian 
breakout capability, but to constrain the time in which you 
will get the notice of such breakout capability? Is that a fair 
statement? Yes or no.
    Mr. Blinken. Yes, it is.
    Senator Menendez. Okay. So we are not eliminating Iran's 
ability to break out. We are just getting alarm bells, and the 
question is how long are we going to get those alarm bells for?
    Now is it not also true that the administration cannot lift 
sanctions, that it can only waive them under the present law? 
Yes or no.
    Mr. Blinken. That is largely correct.
    Senator Menendez. So now the Iranians are going to make a 
deal in which this President may waive sanctions, but the next 
President of the United States, whoever that may be, may 
decide, you know what, this is not in our interests because it 
is only going to give us a limited period of time. And they are 
going to go ahead and say, sorry, we are not waiving the 
sanctions anymore.
    And that, the Iranians are willing to make the hard 
decisions that they need to make, that they have been unwilling 
to make for 18 months because I heard--this movie has been 
played before, right, 20 years. Last June, we heard from the 
President ``just give me time.'' That was 7 months ago, right? 
Now we are reliving it again.
    And so, the bottom line is that we are going to do all of 
this and ultimately be in a position in which if they do not 
make a deal, we are exactly where we were at, but with no 
immediate consequences to them. Their breakout time is shorter 
than the time it will take to create new sanctions. And now you 
are telling me and the chairman, based upon your responses, 
that you do not want us to even vote.
    The Iranians have made it very clear that their Parliament 
has to vote on this issue. Why is it possible that Tehran will 
treat its Parliament better than the administration in the 
greatest democracy in the world is willing to treat its 
Congress? It just boggles my imagination.
    So, Mr. Chairman, I look forward to looking at your 
legislation. I have suggested to you in our previous 
conversations some ways in which I think it might be made even 
stronger. And I appreciate that this is one of our first 
hearings.
    Mr. Blinken. Mr. Chairman, could I quickly address some of 
the ranking member's points?
    Mr. Ranking Member, I think we are most worried about not 
Iranian perceptions, but the perceptions of our partners, who 
are critical to enforcing the sanctions. And what we have heard 
from them, including from Prime Minister Cameron as recently as 
last week, including from our French and British colleagues, is 
that further sanctions now or the threat of sanctions or even 
trigger legislation risks unraveling the international 
coalition that we have built to impose the sanctions.
    At the end of the day, it will be much easier, if we wind 
up suspending sanctions in the event of an agreement of some 
kind, to reimpose them quickly if we have kept the 
international coalition together. So what we are most concerned 
about and focused on is that.
    It is not Iranian perceptions, although it does matter 
because, look, Iran is not immune to politics either. They have 
their own. They have people who are negotiating who are not 
friends of ours, who are not good guys, but who may be more 
pragmatic because they are looking at the future of their 
country and are trying to get out from the burdens that they 
are under.
    So we do want to do what we can to make sure that they are 
not penalized. But what is critical is our partners and our 
ability both to sustain the sanctions and, if we have to, to 
increase them.
    Second, I think under the JPOA, this is different than the 
past. In the past, it is true we have engaged with Iran and 
talked to them without having something like the JPOA. That 
froze that program; in some respects, rolled it back; and 
created much greater access to learn more about it.
    And you are exactly right that under those circumstances, 
the Iranians would be able to basically talk and advance their 
program at the same time. That is not what is happening now. 
This has been a good interim deal for us and our security as we 
have pursued whether we can get to a final deal.
    I think the framework you asked about, what we hope to get 
to in March is the agreement on all of the core elements, what 
commitments the Iranians would make. Then it will take some 
time to translate that into tremendous technical detail. That 
is why we would need the time until June to do that, but that 
is what we hope to be able to present to you, if we get to yes 
at the end of March.
    I do believe that Iran believes that there is the very 
credible threat of force. But what is motivating it primarily 
now and what brought it to the table is the tremendous economic 
burden it is under.
    Thank you.
    The Chairman. Senator Menendez, I appreciate your 
willingness to look at some legislation that would give us an 
up-or-down vote on this issue. And I would say in response to 
Mr. Blinken's comments, I have talked with our international 
partners. Not a single one of them has any concerns whatsoever 
with Congress having the ability to vote up or down on a final 
deal.
    Many of them believe it strengthens our hand. So, with 
that, Mr. Gardner--Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    And Secretary Blinken, I do not want to mischaracterize 
anything that you have said in your response to Chairman 
Corker. So I want to clarify perhaps a comment that I heard 
wrong.
    You mentioned that in the discussion the possibility of 
legislation that the chairman has sent over to you, the 
possibility of that legislation undermining the credibility of 
our negotiators. Could you expound on that comment? And is that 
what you, indeed, said?
    Mr. Blinken. In the context of these negotiations, if we 
get to an understanding, part of this, our commitment, should 
the Iranians make the commitments necessary to convince us and 
our partners that their program would be for peaceful purposes, 
in return, their expectation is that something would be done 
about the sanctions.
    They, of course, would like us to end the sanctions 
immediately. That is something we will not do. And Under 
Secretary Cohen can address that.
    We believe that the best way to proceed is based, not only 
the commitments they make, but also the steps they take to 
implement those commitments that, initially, we suspend, not 
end certain sanctions. And that over time, as they demonstrate 
that they are making good, at that point, we get to actually 
ending them, and Congress would have to do that and play a role 
there.
    The concern that we would have is that if we are saying we 
are going to be suspending certain sanctions early on, and yet 
that is still subject to an initial vote by the Congress in 
some fashion, they will doubt our ability to actually deliver 
on our commitment. That is a concern that could make the 
negotiations more complicated.
    Senator Gardner. And have you heard from any of our 
partners around the world that they believe this legislation 
would undermine the credibility of our negotiators?
    Mr. Blinken. I cannot say that. I have not talked to any of 
our partners personally about the proposed legislation that the 
chairman is proposing or any----
    Senator Gardner. It had been fairly----
    Mr. Blinken. What I was talking about was actually 
sanctions legislation, including trigger legislation.
    Senator Gardner. I mean, it has been fairly public in terms 
of news reports about the proposed legislation, the ideas that 
we would put forward. No one--this is strictly the 
administration's position and none of our partners?
    Mr. Blinken. We would have to ask them. I do not know what 
their position would be on that.
    Senator Gardner. You mentioned talk about the Iran not 
being immune to politics. And so, following up on President 
Rouhani, does he have the support within the Iranian 
Government, within the politics within Iran, to accept an 
agreement from the United States and the international 
community, regardless of how flexible the United States is and 
the international community with sanctions during the--during 
negotiations?
    Mr. Blinken. I think you ask the $64,000 question. The 
short answer is we do not know. That really is the test. Can 
Iran do what is necessary to get to yes and to meet the very 
stringent requirements that we have and that our partners have? 
That is exactly what we are testing now.
    I would say to you, Senator, that over the course of these 
negotiations, we have seen the gaps close. And Iran, after 
initially absolutely rejecting certain steps that we believe 
are necessary, being open to them. But here is what is 
particularly complicated about this.
    This is one of those situations where nothing is agreed 
until everything is agreed. So we may have in the course of the 
negotiations an agreement in principle on one aspect, and we 
have talked about several of them--Arak, Natanz, possible 
military dimensions of the program, et cetera. But unless and 
until we are able to conclude all of the elements, then nothing 
is agreed to.
    So what we have seen is that on specific chapters, critical 
chapters, they have moved closer to a point where we would find 
their commitments acceptable in answering our requirements. On 
others, we are just not there yet.
    And it goes to your question, do they have enough political 
space to make the agreement? I think we will find that out over 
the next 2 months.
    Senator Gardner. And going back to the JPOA, do you believe 
the Corker legislation would violate the intent of the JPOA?
    Mr. Blinken. No.
    Senator Gardner. So, again, it would not violate the intent 
of the JPOA, but would it give us the ability to weigh in as 
Congress, the ability to perform advise and consent obligations 
under our Constitution. So it is strictly the administration's 
concern that this would interfere with their negotiations?
    Mr. Blinken. Again, I think some of the concerns are that--
and the JPOA, I think, may be illustrative of this. If members 
had been asked to pronounce themselves within a month or so on 
the JPOA, I suspect that many members initially might have 
given it a ``thumbs down'' because there was great skepticism 
about it.
    I think the JPOA has proved itself through the results it 
has achieved over the course of the agreement, and I think a 
lot of minds were changed. Indeed, for example, our Israeli 
partners, who were also very skeptical of the JPOA initially, 
now tell us and acknowledge to us that it has been a success.
    So one concern is that pronouncing ourselves on the 
agreement before we have demonstrated whether Iran is going to 
live up to it and meet its commitments I think may be 
premature. Second, there are some elements that, you know, we 
could certainly talk about.
    There is in it a--as I read it at least, Mr. Chairman, a 
compliance requirement that is on a fairly tight hair trigger. 
That is, if there is a violation that is detected, then within 
5 days, sanctions would have to be reimposed.
    We have had situations under the JPOA where we have 
identified things, and actually Ranking Member Menendez 
mentioned a few of them, which we believe were violations of 
the JPOA, the Iranians believe they were not. There may be 
circumstances where it is a good faith difference.
    We have a mechanism in place under the JPOA to litigate 
those disputes, and in every instance when Iran was doing 
something that we thought was problematic, it was litigated, 
and they ceased their activities. For example, the IR-5. So 
that would be another concern.
    And then, finally, one thing, Mr. Chairman--just to put 
this on the table, too, while we are talking about it--is, as I 
read it, it does rule out a JPOA extension. And again, it is 
our strong intent to try and reach the basic agreement in March 
and then to conclude all of the technical details by June. But 
I would not want to prematurely rule out, in a sense 
arbitrarily, any extensions if we are on the verge of 
completing the technical details in June but still have I's to 
dot and T's to cross.
    We might want a little more time. That is at least 
possible. I would not want to rule that out now.
    Senator Gardner. And by all accounts, Iran remains a state 
sponsor of terror and one of the world's foremost violators of 
human rights. These discussions have been involving the regime 
on nuclear issues.
    The regime's record as a state sponsor of terrorism and 
human rights continues to be abysmal. But if the refusal to 
impose additional sanctions while we discuss the nuclear 
issues, would you support additional sanctions that target the 
regime in areas of terrorism and human rights violations?
    Mr. Blinken. Yes, Senator, Under Secretary Cohen can 
address this. I would just say very simply that we have been 
vigorously implementing sanctions in other areas against Iran, 
including on the question of human rights, including on the 
question of support for terrorism.
    But maybe Under Secretary Cohen can address that?
    Mr. Cohen. And just very briefly, Senator, just 3 weeks ago 
or so, we imposed some additional sanctions with respect to 
Iran's violation of human rights, the use of technology firms 
in Iran to stifle dissent. In the period since the JPOA has 
gone into effect, among the hundred or so sanctions that we 
have been--that we have imposed have been 15 focused 
specifically on Iran's support for terrorism.
    Senator Gardner. Mr. Chairman, thank you.
    The Chairman. Thank you, and we would certainly love input, 
love engagement like you are doing with Iran. We would like the 
same respect. So if you have some details you would like to 
talk with us about, that would be fine.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Now I have heard that the right agreement here includes a 
1-year breakout period. A duration of 15 to 20 years would be 
the agreement. Now the Arak reactor would be neutralized, and 
there would be a full-scope safeguards under the additional 
protocol. Those are the highlights, the way I understand it.
    Are the Iranians willing to give up the heavy water reactor 
at Arak?
    Mr. Blinken. Senator, I think you have covered many of the 
key details that would be required. There are some others. The 
short answer is that unless Arak is neutralized so that it is 
not able to produce plutonium that can be reprocessed for a 
weapon, we will not have a deal.
    There are different ways of doing that, and one of the 
things that our negotiators are looking at and the folks who--
the scientists who know the technical details are the different 
ways of doing that. That is part of the negotiations. But the 
bottom line is absent satisfaction on Arak, we will not have a 
deal.
    Senator Markey. Have they agreed to take Arak's heavy water 
processing capacity off the table?
    Mr. Blinken. As of this moment, no.
    Senator Markey. They have not. And on Fordow, your 
testimony pointed out that before the JPOA, Iran had about 200 
kilograms of 20 percent enriched uranium in a form that could 
quickly be enriched into a weapons-grade level. And it produced 
much of the material at the Fordow facility. You say they no 
longer have that capacity.
    What do the Iranians then expect to do with their civilian 
nuclear sites, specifically the underground facility at Fordow, 
under the agreement that you are negotiating right now?
    Mr. Blinken. Without getting into the details of what we 
are negotiating, but again, we would be happy to discuss that 
in a closed setting. Again, in the case of Fordow, any 
agreement has to eliminate its production of 20 percent fissile 
material in a permanent fashion. So that is something that 
would be critical to the agreement.
    Senator Markey. Okay. Now I wrote a book back in 1982 on 
the International Atomic Energy Agency, and I concluded at the 
time that it was a paper tiger in terms of its ability to put 
in place the kinds of intrusive inspections that would ensure 
that there was not a breakout. And so, what I would like to do 
here is just to give you a chance just to talk about the 
inspections regime that other countries abide by and what Iran 
is now negotiating.
    So right now, 122 countries have agreed to allow the IAEA 
to inspect nuclear sites any time they want, with as little as 
2 hours advance notice. Can you tell us a little bit then about 
what the IAEA inspectors can do in terms of visiting Fordow and 
Natanz and other facilities if they want to go in with no 
notice, essentially, which is what the other 122 countries 
allow to happen?
    Mr. Blinken. That is exactly the kind of thing, again, 
without getting into the specifics and the details, exactly the 
kind of thing we would be striving to achieve. That, in fact, 
any agreement with Iran would require the kind of access, 
monitoring, and transparency that actually would put Iran in a 
place that is exceptional, that no other country actually has 
to abide by, precisely because over these many years, as has 
been alluded to, they have forfeited the trust and confidence 
of the international community.
    So we would be looking not only at the additional protocol, 
but other steps, which again I can talk about in a different 
setting, that would give us and give our partners confidence 
that we had all along, in effect, the production and supply 
chain--the mines, the mills, the centrifuge production 
facilities, and then the uranium and plutonium facilities, if 
any, themselves--that we had access.
    And also this would require access to military facilities. 
Parchin is something that we would require access to. And I 
should add----
    Senator Markey. So what are they telling you about Parchin 
right now?
    Mr. Blinken. So, again, I do not----
    Senator Markey. Is it their willingness to allow for IAEA 
inspectors to go into that site?
    Mr. Blinken. What I would like to do, with your permission, 
is to leave any of the specific details of where we are in the 
negotiations, including what they have expressed a willingness 
to do and thus far not do, to a classified briefing, which we 
would be happy to provide. We will bring you up to date on 
that.
    Senator Markey. Yes, I think it is very important for the 
United States to understand exactly what will be the level of 
intrusiveness into each one of these sites.
    And finally, although there are so many things that we can 
talk about here, it has been reported that both Saudi Arabia 
and Jordan are interested in pursuing nuclear cooperation 
agreements with the United States. How will we be able to 
convince those countries to agree not to demand the right to 
enrich uranium as part of those agreements if we allow Iran to 
continue to maintain its enrichment capability as part of a 
final agreement?
    And I put that in the context of the 123 agreement, and the 
chairman already referred to this, the 123 agreement with the 
United Arab Emirates, which, again, I thought was a mistake, as 
I think a mistake would be made if we had an agreement with 
Saudi Arabia, for example. It just will trigger a proliferation 
cascading effect if there is not kind of a sense that there is 
equal treatment.
    So could you talk about that little bit as well?
    Mr. Blinken. Sure.
    Senator Markey. I think it is very important for us to go 
to the next step in terms of what is the reaction of Saudi 
Arabia if Iran has this capability.
    Mr. Blinken. First of all, Senator, let me just note your 
own leadership on these issues and the work that you have done 
over the years on this. We have a very clear policy of trying 
to prevent the spread of enrichment and reprocessing 
technology, and we are working to discourage the proliferation 
of enrichment technology beyond countries that already possess 
it.
    I think any resolution we reach with Iran will be exactly 
the opposite of a model for any other country. I do not think 
any country would want to follow the path that Iran has 
followed to get to where it is, which has involved a decade or 
more of increasingly onerous sanctions, isolation, and an 
economy in tatters. That does not make any sense.
    So I think Iran is actually the counter model, and it sends 
a very strong signal to the rest of the world that this is not 
the path to pursue if you want to have a peaceful nuclear 
program and get the most advanced technology, which we can 
provide under a 123 agreement, for example. So I think it is 
actually very powerful in the other direction.
    Senator Markey. We can pursue this further, but again, I 
think a no enrichment policy is the correct policy, especially 
as it sets a precedent for Saudi Arabia, United Arab Emirates, 
and others and especially since the Iranians are clearly 
intending on building 8 to 10 nuclear power plants as they are 
flaring 10 nuclear power plants' worth of nuclear electricity 
generating capacity on a daily basis.
    Okay? So we just have to understand fully what the long-
term implications are.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Secretary Cohen, in a meeting in the White House last week, 
the President said he thought the chances of a deal are about--
well, were less than 50 percent, and I mean, you said exactly 
the same thing today.
    You know, when you look at odds like that, I think it is 
important for us to take into consideration the high 
possibility that this does not succeed and what we need to do 
in case an agreement is not received--is not able to come out. 
So you had said that if there is not a deal, that the Congress 
and this administration would move quickly to enact new 
sanctions if Iran were to walk away from the talks.
    So could you talk about some specific additional sanctions 
that you think the administration would at least support 
imposing on Iran if the diplomatic talks fall apart and nothing 
is achieved?
    Mr. Cohen. Senator, we have, as you know, over the course 
of the last several years focused in a number of important 
areas--on Iran's ability to sell its oil, on its access to the 
international financial system, on its ability to trade, and on 
investments in Iran's various sectors. I think all of those 
issues would be ones that we would explore and likely focus on 
additional sanctions.
    I am not prepared to tell you, you know, specifically today 
what the--what the detailed sanctions would be. But we--I think 
those broad areas, which have been, I think, quite effective 
would be areas where we would be focused.
    Senator Barrasso. You make the point where you say, well, 
those are things we would be interested in exploring.
    And so, then the question naturally leads to is, how long 
would it actually take until sanctions were imposed that would 
actually have a meaningful impact on what is happening?
    Mr. Cohen. Yes, and I think that is an important question. 
I know that Ranking Member Menendez commented earlier about the 
phase-in time for certain sanctions. And for some legislation 
in the past, we have had relatively delayed phase-ins, 
particularly as we start to do sort of brand-new things.
    In other areas, the phase-in time has been actually quite 
short. And to cite just one example, with the NDAA of 2012, 
there was a requirement that we block all Iranian financial 
institutions, impose sanctions on Iranian financial 
institutions. That was implemented in a matter of weeks after 
that legislation was enacted.
    And so, there are precedents where new sanctions, new 
legislative sanctions can go into effect very quickly. 
Executive sanctions, when we act by Executive order, they are 
immediately effective, and so they go into effect the day that 
they are announced.
    And just one final point. Even with sanctions that have 
some delayed phase-in, business and industry adjust before the 
effective date of the sanction. So if it is, you know, a 2-
month phase-in, you see financial institutions, you see 
businesses, you know, immediately beginning to scale back their 
activity so that they are not caught up short when the 
sanctions go into effect.
    So we can impose sanctions very, very quickly if need be.
    Senator Barrasso. And since the combined impact of 
sanctions not just by the United States, but by others has an 
initial impact on the ground, have there been these discussions 
with P5+1 about the imposing sanctions across the board that 
would snap back into place?
    Mr. Cohen. We have an ongoing conversation with our P5+1 
partners and others, frankly, around the world about sanctions 
and about what the future may hold. I do not want to get into 
any of the details of those conversations, but absolutely.
    Senator Barrasso. A number of us have just come back from 
Saudi Arabia, from Qatar, from Israel, have visited with 
members of the Free Syrian Army. And this has to do with what 
happens when sanction relief occurs and where the money is 
spent. It goes to Iran.
    What we have heard from the commanders on the ground of the 
Free Syrian Army is that when the sanctions were relieved in 
the past, money went into Iran, which then immediately went to 
help finance efforts with Assad in Syria. That Assad, at this 
point, is buying oil and food staples from ISIS. So an indirect 
funding through Assad to ISIS.
    And I am just wondering how this all impacts and how you 
see what is happening there on the ground, at least what we 
have heard on our overseas trip and visiting with the Free 
Syrian Army?
    Mr. Cohen. Yes, I have heard similar reports. It is 
terribly concerning, and no question about it. I will say that 
our sense of what Iran has been doing with the funds to which 
it has been given access that were otherwise frozen under the 
JPOA is primarily to use those to try to prop up its economy, 
which is, as Deputy Secretary Blinken said, in tatters.
    But we have been very much focused on Iran's support for 
terrorist organizations, Iran's support for the Syrian regime 
throughout this process, and we will continue to take action 
where we see an ability to do so.
    Senator Barrasso. Thank you. And because, obviously, Hamas, 
Hezbollah, all of those----
    Mr. Cohen. Absolutely, Senator.
    Senator Barrasso. Mr. Blinken, if I could visit with you 
about regional proliferation. The other thing that we had heard 
that, and I think Senator Markey talked about, if Iran is able 
to proliferate, who else can do it and what the other issues 
and interests are going to be.
    I mean, we heard that Saudi Arabia is going to be 
interested in pursuing either a development program or perhaps 
even purchasing nuclear weapons from Pakistan. And I am just--
there is that concern that this could result in actually 
instead of eliminating nuclear arms in the area, resulting in 
an escalation in a nuclear arms race in the Middle East. Could 
you comment on that?
    Mr. Blinken. Yes, Senator, thank you.
    I think what is most likely to lead to a nuclear arms race 
in the region is Iran getting a nuclear weapon. That would, I 
think, open the floodgates, and we would go down a path that no 
one wants to go down.
    As I suggested earlier, it is our judgment that what Iran 
has done is hardly going to be a model for any other country. I 
do not think any other country would want to subject itself to 
the tremendous burdens that Iran has had imposed on it by the 
international community over the last decade or more for its 
efforts to pursue a nuclear weapon or the material to make one.
    The isolation, the sanctions, the state of its economy, the 
message that that sends to everyone else is this is not what 
you want to do. What you want to do is to respect international 
norms, and indeed, we are prepared to work with countries that 
do that, also to provide for them for peaceful purposes the 
most advanced technology for their nuclear power programs, but 
not enrichment and reprocessing capability.
    So I think actually the message it sends is one of 
following international norms, not violating them grossly.
    Senator Barrasso. Well, I would just say as a final 
thought, I agree completely with you. If Iran has a nuclear 
weapon, that will happen. The question is if they are allowed 
to enrich uranium at a level that far exceeds what they really 
need for energy use. And there is a mathematical calculation or 
how much they need for the number of energy plus the potential 
of how much they want to enrich, how many centrifuges are 
involved, and the concern that even the approval of that could 
result in this additional proliferation and arms race.
    Mr. Blinken. Our entire focus is on ensuring that, as a 
practical matter, they are not able to produce enough fissile 
material for a bomb in less than 1 year. That would give us 
plenty of time to take action with the international community 
or alone, if necessary, to counter that effort.
    I should say we are being very conservative about this, at 
least in my judgment. As you know, it is not just the fissile 
material. It is having a weapon. It is the assessment of our 
intelligence community that they were pursuing a weaponization 
program, at least until 2003. The evidence suggests that they 
stopped then, but this is something we obviously remain very 
vigilant about.
    It is also the capacity to deliver a weapon on a missile 
and being able to mate that together. But what is most visible, 
what is most--what is easiest to see, account for, measure, is 
the fissile material, and that is why in this agreement what we 
are focused on is making sure that the constraints are so 
severe and the access so exceptional that we would be able to 
see if they tried to break out, and we would have plenty of 
time to do something about it.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. I understand that Senator Purdue 
has deferred to Senator Johnson for time reasons.
    I would say to the audience we very much appreciate you 
being here and listening. We do not appreciate being involved 
in the dialogue. So if you could keep comments to yourself.
    And with that, I am sorry, I am going to the wrong side 
here, I guess, Senator Murphy.
    Senator Murphy. Thank you very much, Senator Corker.
    Congratulations on assuming the chairmanship. I know you 
and Senator Menendez have had a very constructive working 
relationship over the last 2 years, and I trust that will 
continue.
    I wanted to accept your invitation and focus some of my 
questions on the jurisdiction of this committee and then maybe 
sneak in the last question on sanctions.
    Mr. Chairman, as you know, I have been one of the strongest 
proponents of Congress exercising its constitutional authority 
and responsibility when it comes to being coequal with the 
executive branch with respect to the management of foreign 
affairs. That is why I think it is absolutely essential, a 
requirement that this committee continue our work on AUMF.
    The Constitution spells out very clearly that it is our 
responsibility to declare war, and thus, we need to weigh in on 
what is happening today in Syria and Iraq. But the Constitution 
is also equally clear as to when the Congress has the 
responsibility to weigh in on international agreements entered 
into on behalf of the United States by the Executive, and there 
is a longstanding precedent on what constitutes a treaty 
requiring the U.S. Congress to weigh in and what constitutes a 
nontreaty obligation entered into by the Executive.
    And I think it is important for us to understand the 
difference between the two because I accept the caution that 
Secretary Blinken made to us about a new precedent that we 
might be setting about weighing in on this agreement and what 
it would mean for future agreements. And I also worry about our 
ability, just in the current political context, to have a 
reasonable, productive debate on an international agreement of 
this import.
    The fact is, is that we cannot even approve a treaty 
recognizing disability rights. We have an agreement on illegal 
arms trafficking that was opposed only by Iran, North Korea, 
and Syria at its inception, and we cannot even begin a 
discussion about that treaty here. And so, I worry about our 
ability to process this.
    But I do understand the concerns that the chairman is 
raising. And so, I want to maybe direct a few questions to our 
witnesses about the concerns.
    The first is that a suspension of sanctions as part of an 
agreement with the Iranians has the effect of being a permanent 
end to the sanctions, thus essentially effectively eliminating 
our ability to weigh in with a statutory removal of the 
sanctions. So I guess I will ask Secretary Cohen this question.
    Do you believe that if an agreement was reached that led to 
a suspension of the sanctions, that that would be an effective 
unraveling of the sanctions? Or do you believe that if the 
Iranians did not live up to the early stages of that agreement, 
we would have the ability to put back in place sanctions that 
were suspended?
    I think it is a legitimate concern that Senator Corker is 
raising, and it would be good to hear your thoughts.
    Mr. Cohen. Absolutely, and it is a legitimate concern, and 
it is one that is, I think, foremost in the minds as this 
agreement is being negotiated, which is that whatever relief 
there would be from the sanctions, from our own sanctions as 
well as from the sanctions that have been imposed through the 
U.N. Security Council, would be in relation to steps taken by 
Iran.
    So, as Secretary Blinken noted earlier, the idea here is 
for phased sanctions relief, phased and tied to specific 
milestones that the Iranians would have to meet. That is in 
part designed to ensure that if the Iranians do not meet those 
milestones, we can reimpose the sanctions quickly because they 
will have been suspended, not terminated.
    And it is important that our international partners, as 
part of this agreement, are buying into that same phased 
approach so that if Iran does not meet its milestones, if it 
does not fulfill its commitments, not only will our sanctions 
go back into effect, others will as well. And they are all 
committed to reimposing the sanctions.
    But, so I think it is a legitimate concern, but one that we 
are trying to address by the way that the agreement is being 
constructed.
    Senator Murphy. And there was a legitimate concern raised 
about the JPOA that did not end up coming true. People said 
that this would be unraveling of the sanctions, and I think 
even our loudest critics now accept that those sanctions can be 
reinstituted because they have held together.
    Secretary Blinken, just talk about what happens within the 
P5+1 if we reach an agreement that our partners are 
enthusiastic about, that they are able to get domestic support 
for, and then the Congress disapproves it. What happens in that 
situation in which we have an agreement that our partners have 
consented to and the administration has consented to, but 
Congress rejects?
    Mr. Blinken. Senator, I think you are putting the spotlight 
on a fundamental point that is very important, I think, to keep 
in mind just as a general proposition, which is that we are not 
the only ones who have a vote in this. It is our partners who 
are critical to sustaining and, if it comes to that, actually 
increasing sanctions.
    And so, working to keep them onboard has been a critical 
effort by the President repeatedly over these years. There are 
several partners beyond the P5+1, for example, who--for whom 
implementing these sanctions is a real economic burden or poses 
real burdens. Keeping them onboard is going to be an effort.
    So if we wind up in a situation where we have reached an 
agreement that all of our partners believe is in their security 
interests, our security interests, the security interests of 
other partners beyond those making the agreement, and then that 
agreement was to be in some fashion unraveled here, I think 
what would result is the sanctions regime that so many in this 
chamber have labored so hard to put in place, that would likely 
unravel.
    So far from being able to implement additional sanctions, 
we would be unable probably to implement the existing sanctions 
regime. Iran would be off in that sense potentially scot free. 
That is at least a danger that we would have to grapple with.
    Senator Murphy. Secretary Blinken, one question on 
sanctions. As a potential tool at the negotiating table, 
consider a resolution from the U.S. Congress stating our clear 
intent upon the failure of negotiations to reach fruition to 
enact the kind of crippling sanctions that we are all beginning 
a discussion about today.
    Clearly, it would be nonbinding but would put the majority 
of the Senate on record, stating our intention to move very 
quickly and expeditiously with sanctions. Would that resolution 
be a violation of the JPOA, and would it be helpful to your 
negotiating position over the course of the next few months?
    Mr. Blinken. I do not believe it would be a violation, and 
I think it would be consistent with the approach that we have 
taken, enabling us both to, you know, make clear what would 
follow if the Iranians do not reach an agreement. And at the 
same time not putting us in a position where we risk 
destabilizing the strong coalition that we built to impose 
sanctions.
    So it sounds, at least on the surface, that that would be 
consistent with the approach that we are taking.
    Senator Murphy. Thank you very much, Mr. Chairman.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I would like to thank Senator Purdue for switching 
positions with me here.
    Mr. Blinken, in reviewing U.N. Security Council 
resolutions, the goal, or certainly a requirement of U.N. 
Resolution 1696, was to ask or call for Iran to suspend 
enrichment of uranium; 1737, same requirement, suspend 
enrichment; 1747 stated that the nuclear program must be 
verified as only peaceful, and I will come back to that. 
Resolution 1803, Iran must halt its enrichment; 1835 basically 
reaffirmed the previous four U.N. resolutions. Then, 1929 again 
calls for the halt of enrichment by Iran.
    At what point in time did we abandon that requirement?
    Mr. Blinken. Senator, thank you.
    I think what we know is and what we have seen is that Iran 
has mastered the fuel cycle. We cannot eliminate that 
knowledge. Nothing we do can do that. We could not sanction 
away that knowledge. We cannot bomb it away. They have mastered 
it.
    So, in our judgment, what is critical to our security and 
that of our partners is to establish a comprehensive solution 
that gives us the confidence because of the extraordinarily 
stringent restrictions on that program as well as the 
exceptional access that inspectors would have that, as a 
practical matter, they cannot produce the fissile material to 
make a bomb.
    That is the way to get at the concerns that motivated the 
U.N. Security Council resolutions.
    Senator Johnson. Again, it is a pretty simple question. 
When did we abandon the goal of not allowing them to enrich 
uranium?
    Mr. Blinken. In the course of the negotiations with them, I 
think it became clear not only to us, but also to all of our 
partners that Iran was not going to give up, as a practical 
matter, some very limited forms of enrichment in the event of 
an agreement. So, again, that knowledge cannot be----
    Senator Johnson. In the JPOA, basically, we abandoned that. 
Correct?
    Mr. Blinken. In the course of the negotiations and the JPOA 
foresees a final resolution that includes an extremely limited 
and constrained enrichment capacity.
    Senator Johnson. Mr. Cohen, in your testimony, you said 
there is no higher priority than to prevent Iran from obtaining 
a nuclear weapon. And you said the goal of the negotiation was 
to, and I believe this is your quote, ``guarantee that Iran 
cannot obtain a nuclear weapon.''
    As long as they are enriching uranium how can you possibly 
guarantee that they will not obtain a nuclear weapon?
    Mr. Cohen. Senator, the intention, and I think it is 
consistent with what Secretary Blinken has said, is to ensure 
if there is a deal to be had here, that the timeline for 
breakout is such that we would be in a position to respond. So 
that if Iran does not adhere to its commitments under an 
agreement, we will be able to take action to ensure that they 
do not obtain a nuclear weapon.
    Senator Johnson. That would be military action then. So, in 
other words, give ourselves enough time to conduct military 
action so they cannot obtain a nuclear weapon. Is that 
basically the administration's policy?
    Mr. Cohen. I think there are a variety of steps that could 
be taken upon the detection that Iran was not adhering to its 
commitments.
    Senator Johnson. We have had testimony before this 
committee on how incredibly expensive it is to enrich uranium 
and also that, if you have a peaceful nuclear program, there is 
absolutely no reason to enrich uranium because you can obtain 
it readily in the open market. Is that not correct?
    Mr. Cohen. That is correct.
    Senator Johnson. With that in mind, Mr. Blinken, you said 
earlier that you cannot imagine that any other country would 
subject themselves to the isolation, the sanctions, the harm to 
its economy that Iran is subjecting itself to. So let me just 
ask a simple question. Why is Iran subjecting itself to the 
isolation, the sanctions, and the harm to the economy if it 
were not other than to obtain a nuclear weapon?
    Mr. Blinken. Senator, I think it is an excellent question. 
I think what we believe is that they clearly had military 
aspirations for their program, and indeed, at least until 2003, 
were pursuing weaponization activities. It is--one can 
certainly ask why a country that is so rich in oil resources 
would need an expansive nuclear program, even a civil nuclear 
program. Those are all extremely good questions.
    Here is what they say, and I am not saying that I agree 
with any of this. They say that they want to devote more of 
their oil resources to exports and remain energy self-
sufficient, hence a nuclear power program. They say they want 
to----
    Senator Johnson. Again, which they could obtain the 
material----
    Mr. Blinken. Absolutely, yes. That is exactly----
    Senator Johnson [continuing]. On the open market?
    Mr. Blinken. That is exactly right. And that is why----
    Senator Johnson. So, again, is the answer not obvious? They 
can make this pain go away tomorrow. They could end the 
isolation. They could end the sanctions. They could improve 
their economy by just suspending, ending, halting their nuclear 
enrichment program, but they are not doing that.
    Mr. Blinken. Absolutely. And that is something that we have 
pointed out to them repeatedly.
    Senator Johnson. So how do we ever----
    Mr. Blinken. So----
    Senator Johnson [continuing]. Have a successful 
negotiation? How do we ever get a good deal with a regime that 
is behaving this way?
    Mr. Blinken. So I think a few things have happened. And 
again, this is the subject of a lot of analysis and 
assessments, and also this is something we can discuss in a 
different setting. And I am not vouching in any way, shape, or 
form for the Iranians or what they believe or what their needs 
are. But I do think that what has developed over time is a 
sense of national pride about the program, a huge investment 
ironically made in the program, and a desire to sustain some 
pieces of it.
    From our perspective, what is critical to our security and 
that of our partners is that if they are going to have a 
nuclear power program of any kind, it is so constrained, so 
limited, so inspected that it cannot, as a practical matter, be 
used to produce material for a nuclear weapon, and it would 
give us plenty of time to do something about it if they did.
    Senator Johnson. One final question. Why does the President 
of the United States believe he is the sole person, the only 
representative of the United States that can actually decide 
whether or not the deal with Iran is a good deal or a bad deal 
for our entire Nation? Why does the President believe he is the 
only person who should have that authority? Why does he not 
believe that this is really more like a treaty that would 
require ratification by Congress?
    Mr. Blinken. Senator, I do not think that he believes that 
or that we believe that. Indeed, as we have discussed earlier, 
one of the most powerful levers we have to make sure that Iran 
makes good on any commitments it makes under an accord, if one 
is reached, is precisely the ability of Congress at the--after 
Iran has made good on its commitments to actually end big 
pieces of the sanctions regime that Congress has put in place.
    That is a tremendous power. Congress has to be fully part 
and parcel of doing this. Just as Congress was critical to 
establishing the sanctions regime, just as we seek these 
consultations going forward on the details, at the end of this, 
the role is absolutely critical.
    So, in effect, you will have a very strong vote, and I 
think the Iranians are very well aware. That is why we want to 
keep the ending part of the sanctions, as opposed to 
suspending, to the far end of the process, to hold Iran to 
whatever commitments it makes.
    Senator Johnson. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    I have been a strong supporter of the administration's 
diplomatic efforts with Iran and the P5+1. We all share the 
goal of an Iran with no nuclear weapons, and the termination of 
any such intent diplomatically rather than militarily is 
preferable to everyone.
    I think the JPOA has been a success. There were those who 
predicted it would lead to an unraveling of the sanctions 
regime. It did not. There were those who predicted it would 
lead to a surge in the Iranian economy. It did not.
    There were those who predicted that Iran would not meet its 
obligations under the JPOA, and they largely have. And I am 
sure in Iran, there were those predicting the United States 
would not meet our obligations under the JPOA, and we have.
    I think skeptics at the origin now realize that the JPOA 
has largely been successful.
    With respect to a final deal, I have a series of very 
significant concerns. First, a deep skepticism about Iran. 
Within the last 48 hours, the United States has had to position 
ships in the Red Sea to potentially engage in an evacuation of 
the U.S. Embassy in Sana'a, a very, very serious contingency 
that is likely enough that we have had to position military 
assets there. All understand that the Houthi effort to topple 
the government in Yemen has been supported and funded through 
Tehran.
    Tehran has basically turned the Assad regime into a puppet 
state. They have done that in Iraq for years. They are 
currently involved in activities to destabilize the governments 
of nations as near as Bahrain and as far away as Morocco. So 
separate and apart from this nuclear negotiation, Iran is 
engaged in activity today that should make us be deeply 
skeptical about their intentions.
    Second, I am worried about the negotiation and the 
potential consequences of it. The United States was engaged in 
a negotiation with Libya over the dismantling of their nuclear 
program, and they gave up their nuclear weapons. Now Libya is 
no good example for anything now, but imagine the chaos of 
Libya if the weapons had survived. We were involved in a deal, 
and it dismantled their weapons program.
    The United States was involved in a nuclear negotiation 
with North Korea where we asked them to to freeze their 
program. They cheated, and they have nuclear weapons now.
    I want this deal to look more like the deal with Libya, a 
dismantlement, than trying to make a deal about, well, let us 
just freeze it for a while with a nation that has proven to be 
very untrustworthy. Because I think if it is only that kind of 
a deal, the end result is more likely to be the North Korean 
situation.
    Iran has made it pretty plain in the course of this JPOA 
negotiation. This is now not a negotiation about Iran 
dismantling a nuclear weapons program. It is a negotiation 
about trying to buy a year of time, to have an alarm bell ring 
and then for us to act.
    So we are already going down a path in this negotiation, in 
my view, where it is more like the Korea--it is more like the 
Korean scenario than the Libyan scenario.
    The number of centrifuges that are being contemplated. I 
have a different point of view than Senator Johnson. Some 
residual enrichment capacity by Iran does not trouble me, and 
that could be part of the deal. But it would have to be a 
capacity that is consistent only with a civilian nuclear 
program and not civilian plus a whole lot more that could only 
be used for a weaponry program.
    And the kinds of things I have been hearing from the 
negotiating team about the number of centrifuges contemplated 
in this deal, this is not consistent with a purely civilian 
program.
    And finally, the point that was made by I think it was 
Senator Gardner or, no, Senator Barrasso, this is going to 
trigger an arms race in the region. Our allies and others who 
are not our allies are telling us this.
    And if all we get with a deal like this is Iran agreeing 
to, well, we will give you a year before we break out, then 
other nations are going to start trying to say, okay, I got to 
be able to have nuclear capacity within a year. They are going 
to have to engage in those behaviors. Saudi Arabia, Turkey, 
Egypt, if it is just a year we are buying, they will undertake 
similar activity.
    I think Congress has to weigh in on a final deal. I support 
the JPOA. I support the administration's diplomacy, but I think 
we have to weigh in. And the reason we have to, and I 
understood Senator Murphy's point, constitutional. He is right 
about many such deals, but he is not right, I do not think, 
about this deal.
    Because this deal is fundamentally about one thing on our 
side. Under what conditions will a congressionally imposed 
sanctions regime be dismantled?
    If the administration was negotiating about other things 
and saying we are not going to touch the congressionally 
imposed sanctions regime at all, then congressional approval 
would not be warranted. But there is no condition under which 
you are going to bring a deal back that does not involve Iran 
wanting relief from congressional sanctions.
    And so, since this deal is fundamentally the only real 
lever we have is the congressionally designed sanctions regime, 
effectively implemented by the administration that has brought 
it around to the table, the only lever in this negotiation is 
the congressionally imposed sanctions regime. And I do not 
think that the--while limited waivers were certainly 
contemplated, I do not think a blanket suspension for a period 
of time was contemplated by that language.
    And so, I do think it is very important for Congress to be 
able to weigh in onto this deal, especially given the actor 
that we are dealing with.
    Now a couple of quick questions. How confident are you, for 
either of you, that the United States or the IAEA can detect 
clandestine nuclear sites? I understand newer and newer 
iterations of technology required or acquired are harder to 
detect. How confident are you on that, and talk about the way 
you are approaching the inspection especially of clandestine 
sites in this negotiation.
    Mr. Blinken. Thank you very much, Senator. And I can also 
address some of the other important comments you made.
    What we know is this. The access that has already been 
achieved under the interim agreement, under the JPOA, is beyond 
anything we have had, and that has already enhanced the ability 
of the IAEA and, indeed, our own people to have a better 
understanding of what Iran is doing and what it is not doing. 
Any agreement that we reach, and this is something again we can 
go into in a classified setting, would have to have more 
stringent requirements still in terms of monitoring, in terms 
of access, in terms of transparency all along the production 
line.
    So will we have 100 percent certitude? No. I do not think 
that is possible. Can we significantly increase our ability and 
the ability of the international community to detect an effort 
by Iran to develop a covert program or to break out from its 
overt program? I think we can be in a much stronger place, 
clearly a much stronger place if we are able to get the 
agreement we want, than we even are under the JPOA, which is 
already better than it has ever been.
    And clearly in a much better place than we would be if 
there is no agreement or if we were in the pre-JPOA world. So 
this is something we will build on.
    By the way, I should have mentioned earlier in response to 
several questions, including Senator Markey, one of the other 
reasons that I do not think countries are going to rush to do 
what Iran did is precisely because of the limitations in terms 
of transparency, in terms of inspections, in terms of 
monitoring that will be imposed on their nuclear program in the 
event of some kind of resolution. That is something that, 
again, most other countries will not want to live with because 
this would have to go well beyond what is required of other 
countries.
    I would just say also very quickly, Senator, we share your 
concerns and the concerns of other members of this committee of 
Iran's actions in other areas. That is precisely why we are 
vigorously implementing sanctions and taking other actions to 
counter and push back on their efforts to destabilize other 
countries, on their efforts to proliferate, on their efforts to 
support terrorism. That will not end even if we get an accord 
with them on the nuclear program.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Very good. Thank you.
    Senator Purdue.
    Senator Purdue. Thank you, Mr. Chairman.
    The administration was very clear, Mr. Cohen--and thank you 
guys for being here today--at the start of JPOA that the 
sanction relief would be very limited, but the enforcement 
would be very stringent. Yet in the last 6 months, we have only 
had really one public announcement of a sanction enforcement 
action.
    Can you speak to that and speak to, you know, has Iran 
stopped its illicit procurement efforts and attempts to bypass 
our energy and financial sanctions?
    Mr. Cohen. Certainly, Senator. As I noted, since the JPOA 
went into effect, we have imposed sanctions on close to 100 
entities that are related to Iran, including some this last--
the end of December. A set of individuals and companies 
involved in trying to assist Iran in getting access to U.S. 
dollars, which remains forbidden.
    We have had a series of actions taken over the last several 
months, some in August, some previously. We act when we have 
the information available to us to take the public designation 
actions and announce them. That is the tip of the iceberg.
    We have been continuing to work on ensuring that the 
sanctions remain in place and remain firmly in place throughout 
this period, as we were previously, and that means things that 
do not quite get as much attention as a designation action but 
working directly with partners around the world, reaching out 
directly to companies that we think might be getting close to 
the line and making sure that they understand the power that 
they are courting.
    So there have been innumerable actions well beyond the 
hundred designations that we have taken that have all together, 
I think, resulted in the sanctions remaining in place, 
remaining robust over the course of this JPOA. And as you know, 
as I forget if it was Senator Murphy or Senator Kaine noted, 
there were a lot of people who questioned whether the 
sanctions' architecture would remain in place.
    I think we have managed to keep our sanctions regime very 
firmly in place and have managed to ensure that the pressure on 
Iran from the sanctions that have been developed in Congress 
with the administration, with our partners continue to apply 
that pressure throughout this period and continue to provide 
the leverage that our negotiators need.
    Senator Purdue. Thank you. I will yield the balance of my 
time.
    The Chairman. Thank you. Thank you very much.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here.
    You know, Deputy Secretary Blinken, I certainly share the 
view that it is important for us to keep our coalition together 
if we are going to be successful. And one concern that I have 
is to what extent we are going to be able to do that, given 
what is happening with Russia. And so, I wonder if you could 
talk a little bit about what Russia is doing today?
    There is a notice of an agreement that Iran and Russia have 
just signed, and you know, clearly, the sanctions that we have 
taken against Russia over Ukraine seems like it is going to 
have an impact on what is happening with Iran. So can you talk 
about Russia's willingness to continue to be part of this 
effort and to what extent we are seeing their commitment being 
reduced or not?
    Mr. Blinken. At least as of this moment, what we have seen 
in the context of the negotiations with Iran is Russia 
continuing to play a constructive role. And I can see how that 
would be surprising, and indeed, one of the things that I think 
was a concern was whether Russia would, because of what we are 
doing to impose severe penalties on it for its actions in 
Ukraine, because of disputes about other courses of action it 
has taken, including in Syria, that this would somehow rebound 
in the nuclear negotiations.
    But I have to tell you that at least to date, as of now, 
they continue to play a constructive role, and they have been 
actually very helpful in pushing Iran in the direction that it 
has to go in if we are going to get any kind of resolution.
    And David may want to address, I do not know, anything on 
the sanctions piece?
    Mr. Cohen. Yes, I think we have, I mean, as you know, 
Senator, imposed a whole set of very powerful sanctions on 
Russia. I think we will not go into great detail on this here 
in this setting, but it has had a very significant effect on 
the Russian economy and on, I think, how they are perceiving 
what is happening in Ukraine.
    But I think Secretary Blinken is right, that it has not, to 
our knowledge, sort of bled over into the Iran negotiations.
    Senator Shaheen. Well, if you would, talk a little bit more 
about that because one of the things that I thought was very 
telling was when Russia canceled the missile deal with Iran 
several years ago. And we have got Putin, I was just in an 
Armed Services Committee hearing upstairs where Dr. Brzezinski, 
former National Security Adviser, talked about Putin's comments 
around using nuclear weapons during this Ukraine conflict and 
suggesting that that might be a possibility at some point.
    So, you know, can you--to what extent do we believe that 
Russia continues to be very concerned about Iran developing a 
nuclear weapon, and how is what is happening in Ukraine 
affecting that?
    Mr. Blinken. Senator, I think it does share that concern, 
which I think explains largely why it has been, at least again 
until now, a constructive partner in the efforts to make sure 
we put in place something that denies, as a practical matter, 
Iran the ability to develop material for a weapon.
    You know, there have been reports, over the course of the 
negotiations, of Iran starting to do deals--excuse me, Russia 
starting to do deals with Iran. None of that to date has 
materialized, and indeed, if Russia or any other country seeks 
to evade the sanctions, I know that the Treasury Department 
will come down on them, as it has on sanctions violators 
throughout this process.
    There is pressure on Russia to look for new markets, new 
customers, new countries with whom to engage precisely because 
in Ukraine we have had a significant impact on their economy 
and on their ability to do business in some areas. But again, 
at least as of now, within the context of the negotiations, 
they remain a good partner.
    Mr. Cohen. If I could just elaborate on one point that 
Secretary Blinken alluded to there? The first reports of a 
potential Iran-Russia oil-for-goods deal came up, I think, in 
the fall of 2013. And at that point, I recall testifying and 
saying if Russia were to do such a thing, that we would take 
action. We would impose sanctions. And it was met, I think, 
with skeptical looks on the notion that we would ever impose 
sanctions on Russia.
    I think we have disabused certainly the Russians of any 
notion they may have that we would not take firm action under 
our sanctions authorities if they were to engage in behavior 
that is sanctionable, including working with the Iranians on an 
oil-for-goods deal.
    Senator Shaheen. Thank you.
    Can you also--shortly after the JPOA was negotiated, there 
was a lot of noise in some of the European capitals about trade 
deals with Iran and trade delegations that were being sent to 
Iran. Can you talk about what is happening to date, if any of 
those have successfully negotiated any deals, assuming there is 
an agreement would be reached and sanctions would be lifted?
    Mr. Cohen. Yes. And I know, Senator, this has been a 
longstanding concern of yours and something that we have been 
watching very closely, as have our colleagues at the State 
Department.
    We are not aware of any deals that have been struck in the 
event that a negotiation is successful. And I will say that 
under our sanctions authority, executory contracts of that 
sort, where you have an agreement that goes into effect when a 
future event occurs, are sanctionable. And we have made clear 
in all of our public messaging and all of our outreach that a 
deal that is contingent upon a lifting of sanctions in the 
future is immediately sanctionable today.
    Senator Shaheen. And do we have any idea how many 
delegations have actually visited Tehran?
    Mr. Cohen. I do not have that number right at hand. There 
have certainly been, you know, quite a few that have visited, 
no question about that. But you know, we have have tracked it. 
We have reached out on many occasions to some of the sponsors 
of these trips, some of the entities that are involved to make 
sure that they understand what the rules of the road still are.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Thank you, Mr. Chairman, and thank the 
witnesses.
    Like many in this room, I have been supportive of these 
negotiations. I applaud the administration for undertaking 
them. I think it is incumbent on us to look for every avenue.
    We often say that the purpose of sanctions is to get 
parties to the table. They are at the table, and so I am 
confused by the notion that some would want to impose 
additional sanctions while negotiations are going on, 
recognizing and stating that the purpose of sanctions is to 
bring people to the negotiating table.
    Having said that, I am as skeptical as anyone that Iran 
will actually come through and follow through on their 
agreements for the long term, and I certainly hope they do.
    I am as concerned as you are about breaking up this 
coalition that we have, the P5+1. These sanctions have been 
effective because they are multilateral, and I am very 
concerned that that will break up.
    They are at the table because this has been Iran versus the 
West rather than Iran versus the United States, and I think 
that is what we need to make sure continues. And so, I am 
sensitive to the administration's concern that Congress move 
ahead now with additional sanctions even triggered that might 
upset the negotiations and fracture the coalition, the 
effective coalition that we have.
    I do believe that if the administration thinks that they 
can conclude an agreement and move on without Congress weighing 
in, however, at some point on that agreement, that is a bridge 
too far. It is our right and our responsibility to weigh in on 
an ultimate agreement, and so I will be anxious to see the 
administration's formal response to the chairman's proposal and 
look forward to those discussions as well.
    But I also, just as a side agreement, I am glad to see that 
Treasury, and particularly OFAC, has lessened its load a bit by 
changing our policy toward Cuba and that we are not spending so 
much time and resources licensing Americans to travel to Cuba 
and can free up resources and time and effort to make sure that 
these agreements and the sanctions that we currently have and 
future sanctions, if they should be ramped up, that we have the 
resources to actually do that.
    But a lot of the questions I had that I was going to ask 
have been answered already. So I would just say that I applaud 
the chairman for putting forward the proposal he has in terms 
of Congress weighing in on an ultimate agreement.
    But I hope that we are sensitive to these negotiations. I 
do believe that as many of us have discussed here, that if this 
JPOA were to continue in perpetuity, it would not be such a bad 
thing. As long as that breakout time is significant enough and 
that Iran is not progressing toward a nuclear weapon, that is 
what our goal should be.
    And so, I hope that we can stick with these negotiations. I 
hope that they are fruitful in the end. But I am certainly 
willing to play as constructive a role as I can as a member of 
this committee to make sure that that happens.
    So thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. Thank you for 
holding this hearing and for the constructive relationship that 
you and our ranking member have had on this important issue.
    And I, too, support the administration's strong and 
persistent and determined efforts to bring Iran to the table, 
and congressionally enacted and administratively implemented 
sanctions have made a critical difference in changing the 
trajectory of Iran's illicit nuclear weapons program. Like many 
of my colleagues, I have deep suspicion of Iran's intentions 
and actions, rooted in their human rights violations, their 
support for terrorism regionally and around the world.
    Developments even today in Yemen that suggest they continue 
to engage in activities not just their illicit nuclear weapons 
program, but in many other ranges that should give us deep 
pause about any agreement with them. Nonetheless, I think you 
have made significant progress in getting them to the table and 
in continuing negotiations.
    But I will just reassert that no deal is better than a bad 
deal and that a deal that we cannot ultimately enforce and that 
we cannot ultimately live with in terms of where it leaves us 
in the long term or the short term is worse than no deal at 
all. And one of my core concerns is whether or not we really 
will have the time to react, we will be really able to detect 
cheating and leakage, and whether we will be able to sustain 
the sanctions coalition that you have so successfully convened 
and put into place around the world.
    First, just to comment, if I might, to the nominee to be 
the Deputy Director of the CIA, my congratulations on your 
great leadership and work in sanctions enforcement. One 
positive of the omnibus that I think was not widely remarked on 
was an increase in the resources for sanctions enforcement. And 
whether it is the lightening of the load that Senator Flake 
referenced, or an increase in appropriated resources, it is my 
hope and my confidence that your successor will continue this 
same determined and vigorous enforcement of sanctions that has 
been the hallmark of your time there.
    Let us get into, if we might, both where this deal as 
imagined and described would leave us and then where we are 
today.
    First, where it would leave us. One of my core concerns, 
expressed eloquently earlier by Senator Kaine, is that we are 
no longer negotiating the dismantling of Iran's nuclear 
infrastructure. We are negotiating for them to retain enough 
enrichment capacity and enough facilities that we have 
confidence that their breakout time is no less than a year.
    What does that leave us in 2021 or shortly thereafter? I 
know the exact length of the agreement is not yet finalized, 
but how do we avoid the regional proliferation that would come 
from an agreement that essentially locks in Iran as a threshold 
nuclear power? And how do we ensure that the message that the 
region and the world takes from this agreement is not that we 
have assented to there being a threshold nuclear-weapons-
capable power?
    Mr. Blinken. Senator, thank you very much. Just very 
quickly, we, first of all, share your deep suspicions about 
Iran and its actions. That is precisely why we are driving to 
get a deal, if we get one, that satisfies very stringent 
requirements.
    We also fully agree with you and other members of the 
committee that no deal is better than a bad deal. Indeed, there 
have been opportunities to take a bad deal. Some of our 
partners would have been willing in some of these areas to 
settle for things that we are simply not prepared for and will 
not settle for. So we very much agree with the premise that you 
and other members of the committee have put forward.
    In terms of where Iran is at the end of this, again, a few 
things. In our judgment, the 1-year breakout time is critical 
but also very conservative. Beside the material for a weapon, 
they need a weapon itself. So we will be vigilant about their 
efforts to return to weaponization. They need an ability to 
deliver the weapon. We will remain vigilant about that.
    Then we are also being conservative because, quite frankly, 
it is a little bit hard to imagine Iran or any other country 
breaking out in that fashion when they get to one weapon's 
worth of material. It would be much more logical, if they were 
to go down that path, to accumulate enough for several weapons, 
which would take much longer.
    But if we have the 1-year period, we believe that that 
would give us plenty of time, if it proves necessary, to take 
whatever steps are necessary to reverse that action. It may be 
resuming economic pressure. It may be military action or other 
things.
    In terms of where they are left, to come to your question, 
they will not be, in a sense, a threshold state at the end of 
this. They cannot become a nuclear weapon state through the 
front door, first of all. There will be a permanent ban on 
weaponization activity. They will permanently have to apply the 
additional protocol to ensure, to the best extent possible, 
there is no undeclared program. There will be extensive IAEA 
safeguards on the declared program to ensure that there is no 
diversion.
    For the duration, obviously, we will have the enhanced 
monitoring and access. That will allow us to understand, better 
than ever before, every nook, every cranny, every person, every 
place, every document involved in the program. So even beyond 
the duration of the agreement, that knowledge will give us a 
much greater ability to detect whether they are trying in any 
fashion to break out.
    And, of course, at the end of whatever the duration is, we 
retain exactly the capacity we have today to take action, if 
they do something that threatens our security.
    We will be no worse off, and, indeed, we will be infinitely 
better off, given the knowledge that we will accumulate over 
time about their program.
    So the idea that Iran would be treated at the end of this 
kind of agreement as a nonnuclear weapons state was actually 
one that was first advanced by the previous administration. 
And, indeed, our partners around the world, and this goes to 
what I think Senator Flake said a moment ago, the purpose of 
these sanctions has been to get Iran to the table in order to 
negotiate something that gives the international community 
confidence that any nuclear program Iran has is going to be for 
peaceful purposes.
    And should they violate any of those commitments, we would 
be able to do something about it. So as an effective matter, as 
a practical matter, they cannot break out.
    That is what we are striving to achieve. And again, we hope 
we can get there by March.
    Senator Coons. And I am concerned that centrifuge R&D also 
be a central part of the negotiations, because perhaps in the 
first phase of the JPOA, it was not as fully embraced as it 
should have been. My sense is that, moving forward, it now is.
    There are two different ways that they could expand their 
breakout time. One would be the accumulation of potentially 
fissile material. I think the JPOA has dealt with that 
effectively, and my understanding is the negotiations have that 
clearly in its sights.
    A core concern going forward is that they not be allowed in 
any way to engage in the sort of R&D that would change their 
breakout time on the backside, whether it is in 2021 or through 
illicit means. We do need to shut down any potential centrifuge 
R&D.
    Mr. Blinken. Senator, we agree that R&D has to be a 
critical component of any agreement.
    Senator Coons. Thank you.
    Mr. Cohen. Mr. Chairman, if I could for just 10 seconds in 
response to Senator Coons?
    The Chairman. Sure.
    Mr. Cohen. First, thank you for your kind wishes in my new 
assignment. I want to ensure you and members of this committee 
and anybody else who may be watching that the team who will 
remain at Treasury after I move along is completely committed 
to ensuring the implementation of sanctions will be robust, 
probably even better without me being there.
    That team that I worked with very closely over the past 
several years is the team that will remain. I am certain that 
our sanctions will continue to be very, very vigorously 
enforced.
    Senator Coons. Thank you. You have done a great job with 
limited resources. I am glad you will have even more resources, 
and I wish you the best of luck in your new opportunity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. Thank you, Mr. Chairman.
    When our Founders brought together our Government, they 
brought together coequal branches. And the hope was that they 
would pit ambition versus ambition, and the ambitions of 
Congress to maintain its power would be pitted against an 
Executive who wanted more power, and that this back and forth 
would check and balance power. I am glad to see today that 
there is some exhibition that on both sides of the aisle 
Congress is trying to pit their ambition against the Executive 
and check the power of the Executive.
    In saying this, though, I believe that we have all 
concluded, both Congress and the Executive, that the final 
passage has to be done by Congress. We are arguing over 
waivers, suspension of waivers, and how long these waivers will 
be. If we could get to the crux of the argument, maybe there 
could be an agreement that could be found.
    The lesson to us, though, is when we rewrite this 
legislation, any legislation moving forward, we need to be a 
little more careful with waivers we give, because they will not 
want to give them up very easily.
    As we move forward, I have been one who says new sanctions 
in the middle of negotiations is a huge mistake and may well 
break up the sanctions coalition, may well drive Iran away from 
the table. I have been one who wants sanctions because I do not 
want war, frankly.
    There are many on our side who often say, well, we do not 
need 535 generals. The President should just do what he needs 
to do in times of war. I think there is a certain analogy to 
diplomacy, that we do not need 535 negotiators. But I also do 
not want to give up my right to approve of the negotiation.
    At the end of this, you want this suspension to go on, I do 
not know, maybe to the end of the President's term. If I am the 
Iranians, why would I care to go through all of this to have 
sanctions relief for a year, a year and a half?
    You have greater ability to negotiate once you affirm, 
which is the law, that we will have to pass the final 
negotiation.
    Just admit to it. Come to an agreement with Senator Corker, 
admit to it, what is the law, and then we can have permanent 
sanctions relief, trade with Iran again, if they will submit. 
They will be more assured of what we are doing and of the 
agreement if they know it has to pass us.
    I have heard whispered when I talk to people on your side, 
``Oh, those Republicans will never approve anything.'' But as 
you listen to us, all the way around, I think there is a nuance 
of opinion. I think there are several of us on this side who do 
not blanket say no, we will not vote to approve an agreement. 
But we want you to know that we have the right to vote, so you 
come and talk to us, so you talk to the chairman.
    I have been working with Senator Boxer on an agreement that 
would not be new sanctions. It would basically be, if they do 
not comply with the current agreement, sanctions would renew. 
But I also would like to marry that with what Senator Corker is 
talking about, the admission, and this would be admission and a 
signal, but it is the law that you will have to get our 
agreement in the and.
    Is there any kind of compromise in there? Maybe. I think 
you need to talk to Senator Corker. There could be something on 
the suspension that is a period of time. But I do not know what 
90 days really gives you, or 120 days. We could do years of 
negotiation to get 120 days of sanction relief. They want 
permanent relief.
    That is the carrot we are dangling, and we want something 
from them. We want them to live in a safe, nonnuclear world. 
That is what we want.
    So I agree. We keep asking for more and more. Centrifuges 
have to be part of this. All of it has to be part of this.
    But I do not know that you gain a lot in the administration 
by saying that we are not going to agree to what Senator Corker 
is saying, we are not going to agree that the final agreement 
has to be done by Congress. In doing so, you bring us to an 
impasse. There is a chance of an override of a veto, frankly.
    I am somebody who wants to work to find a middle ground, 
but I also want you to include some of the language that 
Senator Corker is talking about, admitting that not only--we do 
not want to be consulted. I do not want you to come pat me on 
the back and say, hey, this is what we just did. I want you to 
ask me for permission, and I want you to present the agreement 
to us, and I want you to present an agreement we all like.
    You are not going to get everybody, but I think the vast 
majority will vote for a reasonable thing. My argument is let 
us see if we can actually read proposals, talk to individuals, 
and see if there is some kind of common ground we can find.
    Thank you.
    Mr. Blinken. Senator, thank you very much. Just to respond 
very briefly, first of all, just as a matter of basic 
principle, we and I personally absolutely welcome the 
opportunity to consult closely with the chairman, with the 
ranking member, with every member of this committee, on the way 
forward on Iran and, for that matter, on any other issues that 
are before us in foreign policy and national security. So we 
can absolutely continue this conversation.
    This is a question of judgment, I think. Our best judgment 
right now is this, and I think, Senator, you pointed to 
something very important. You are exactly right. What the 
Iranians want is permanent relief. And it is precisely by 
holding back that permanent relief until, over a significant 
period of time, they have demonstrated that they are making----
    Senator Paul. And actually, I agree with that point. So the 
idea of suspension is not a bad idea. However, then you need to 
work with us. I like the idea. We vote on a 1-year suspension. 
Let us find out if they are complying. If we like the terms of 
the agreement, let us vote again in another year on another 
year's suspension.
    But just do not think that you are going to be able to do 
it by yourselves. If you will acknowledge you have to bring it 
to us, come and sell us. Democracy is messy. And that is the 
thing.
    You have to come and sell us on something. It is not 
consultation. You have to sell us because we are your boss. We 
are your coequal in this. We are not your subject. We are your 
coequal.
    I fully believe that you can bring, if you have all P5+1 on 
board with a negotiated settlement, I think you can sell it to 
us. I, frankly, think it is not an impossible sell.
    The Chairman. Thank you, Senator.
    I will say consultations up until this point have been a 
phone call in the morning that something is happening. And, 
generally speaking, while we are receiving that phone call, we 
are reading the New York Times or someone else's report.
    So I do want to associate myself with his comments, 
generally speaking, and do hope we will come to some accord.
    Senator Udall.
    Senator Udall. Thank you, Senator Corker. Let me join with 
others in thanking you and Senator Menendez, in terms of trying 
to work through things and, you have shown it when your 
positions were reversed, move us in a bipartisan way and get 
agreements. I hope we continue that as we move along.
    I very much appreciate having the witnesses here today.
    At the last, you repeat many things that have been said, 
but I also support the negotiations. I think it is very 
important that Congress does not torpedo them and disrupt them. 
But I think the message you are getting from us is we want a 
hardnosed negotiation. We want to be involved in the process. 
Part of it is going through this hearing.
    I think one of the things you are saying that is absolutely 
key is, if we were alone doing sanctions without all these 
other countries, we would be in a much different situation. It 
is holding the coalition together that is tremendously 
important.
    I think we need to remember that when we move forward with 
whatever the negotiations produce, that we want to keep all 
those countries together and keep the pressure on. I would like 
you to just comment on that, but I have a couple questions 
here.
    One is, how quickly could we put additional sanctions in 
place, if you had a failure? That is one.
    And another is an observation on the side of, we hear a lot 
about the Supreme Leader in Iran. We hear a lot about the 
President. And then we hear a lot about the hard-line. The 
roles of the various players there, who is going to really 
determine that Iran signs onto this deal?
    As you follow this, you begin to wonder who is in charge 
there. So then that leads to the question, if you have an 
agreement, who could undermine it in the future?
    I am going to go ahead and let you take a shot at a couple 
of those, and maybe follow up here in a minute.
    Mr. Cohen. Why do I not take the question about how quickly 
we could impose new sections, how quickly Congress could impose 
new sanctions? I think the answer to that is very quickly.
    It has been done in the past in some of the legislation 
that has been enacted. There have been sanctions that have gone 
into effect in a matter of weeks. In some of the executive 
actions we have taken, those sanctions almost always are 
immediately effective.
    So the answer is, we would be able to, working with 
Congress, as well as working on our own, impose additional 
sanctions, frankly, as quickly as we want to.
    Senator Udall. And do you think, Secretary Cohen, other 
countries, the ones that we are working with, if things 
developed in a negative way, that they would then be willing to 
join us on that?
    Mr. Cohen. It is a crucial question. I think the 
willingness of other countries to continue to work with us on 
imposing sanctions, contrary to the economic interests of many 
of these countries, contrary to economic interests of their 
businesses, is dependent on their continued belief that we are 
seeking a negotiated resolution.
    In the future, if the talks break down, the ability to hold 
together the international coalition to intensify the sanctions 
is going to depend, I think, in large part on who our partners 
perceive is to blame for the breakdown. So long as we do 
everything in our power to try and achieve an agreement that 
meets our needs and meets the needs of our partners, and it is 
Iran that is to blame for not reaching agreement, I think we 
will have a much better chance of holding together the 
international coalition and being able to intensify the 
pressure at that point on Iran.
    Senator Udall. Thank you.
    Mr. Blinken. Senator, with regard to your question about 
the various players and, in effect, who is in charge, we 
obviously have imperfect knowledge of this. But I think what we 
have assessed, and again this is something we can go into in 
more detail, there are clearly different power centers in Iran.
    I think sometimes we have a tendency to look at Iran as if 
it is the one country in the world that does not have politics. 
In fact, it does, and they are very intense. The Supreme Leader 
has been at least the first among equals for some time. But 
there are critical other constituencies that factor into their 
decisionmaking.
    I think one of the most powerful things that happened in 
Iran in recent years was actually the election of President 
Rouhani, because, in our judgment, that was a reaction to the 
desire of the Iranian people to improve the economy, to get out 
from the isolation that they are under, and to move Iran in a 
different direction. And in the confines of the system, which 
is obviously heavily confined, that was what Rouhani was trying 
to be responsive to. Whether that is because he believes it or 
it was politically expedient, I do not know.
    I think the Supreme Leader also has to measure that in 
factoring in how much leeway he is going to give to the 
negotiators in the nuclear context.
    I will say this, to date, again, as IAEA continues to 
confirm, Iran has made good on the commitments it has made 
under the interim agreement. It has held to the agreement.
    Going forward, if the power center changed, as we have made 
very clear, Iran, if it violated the agreement in any fashion, 
would be subject to an intense reaction from us. And as Under 
Secretary Cohen said, if we are able to preserve the unity of 
the international coalition that you pointed out at the 
beginning of your remarks, Senator, that will give us a much 
greater ability to respond effectively to any decision by Iran 
to violate the commitments it makes.
    Senator Udall. Thank you very much.
    And thank you, Chairman Corker.
    The Chairman. Thank you, sir.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Secretary Blinken, much of this debate here today has been 
about the role of Congress and our need to trust in the ability 
of the administration to craft a good deal, and in the fact 
that we are going to be consulted. That was the question that 
you asked.
    So I want to take you back to the last time you were before 
this committee, and I asked you a question at that time, during 
your nomination, about whether there would be any unilateral 
changes or changes in Cuba policy. And your answer, and I want 
to quote it to you, it said, ``Anything that in the future that 
might be done on Cuba would be done in full consultation, with 
the real meaning of the word `consultation' that I just alluded 
to, with this committee.'' You told me that the last time you 
were before this committee.
    Who did you consult with on this committee? Or who did the 
administration consult with on this committee before it 
announced the changes on the 17th of December?
    Mr. Blinken. Senator, I regret that I did not live up to 
the standard I set during that hearing and in the remarks that 
you just quoted. I think that I could have done a better job in 
engaging with you and consulting with you in advance, and I 
regret that.
    Senator Rubio. Did you consult with the chairman of the 
committee?
    Mr. Blinken. A number of members, I think, were reached out 
to, consulted. What happened was this----
    Senator Rubio. Who were the members who were consulted?
    Mr. Blinken. If I could come back to you on that, I would 
need to, first of all, get an accounting of that and also make 
sure that any members who were consulted would want that----
    The Chairman. If I could interject, I assure you that I was 
not consulted.
    Senator Rubio. Mr. Chairman, you were the chairman at the 
time, were you consulted?
    Senator Menendez. Well, no. There is a difference between 
notification and consultation. Being notified when it is going 
to happen is not consultation.
    Senator Rubio. And the reason why this is relevant is we 
are being told that we are going to be in the loop on 
everything that is happening with Iran. We have an example very 
recently that we were not in the loop.
    But you were aware at the time that these conversations 
were occurring with the Cubans, were you not?
    Mr. Blinken. I was aware generally that they were 
occurring. I think what happened in the endgame was, as you 
know, Senator, this was a very delicate situation in which we 
were trying to get our asset back.
    Senator Rubio. It was not more delicate than this.
    Mr. Blinken. And in the endgame of that, there was a lot 
going on to make sure that happened in a safe and secure way.
    But again, I come back to what I said at the outset. I 
think you are right to point it out.
    Senator Rubio. But I am not quarreling with the Alan Gross 
release. I am quarreling with the policy changes that were 
made.
    Why it is relevant to Iran is that we are being asked to 
trust that we are going to be fully consulted. The use of the 
word ``consultation'' as it has been defined by the 
administration in the last instance that I just cited is 
problematic.
    I do not want to make this all about Cuba, not to belabor 
the point, but I also asked whether there would be any changes 
in policy absent democratic order. I asked you whether the 
changes, when you say move forward, move forward on democratic 
reforms, not simply economic reforms, and you said not simply 
economic reforms.
    And clearly, we do not see any democratic reforms. There 
was release of 53 political prisoners. Fourteen had already 
been released on December 17. One of them had been released 
almost a full year before December 17. Four had fully completed 
their sentences. Five have been rearrested. And since the deal 
was done on the 17th, 200 new political arrests have occurred 
in Cuba.
    But here is why that is relevant to this, because we are 
being asked as a Congress to sit tight, because we are going to 
be fully consulted. And it sounds like the only people who are 
going to be fully consulted are the people who agree with the 
administration. And if you do not agree with the 
administration, then you will just be notified.
    My second point goes to the question that both Senator 
Udall asked about who is in charge, but also what Senator 
Johnson asked about why the Iranians would undergo so much pain 
in pursuit of this.
    The answer to who is in charge, unless you dispute it, is, 
ultimately, who is in charge is who they call the supreme 
leader, the ayatollah. Is that accurate?
    Mr. Blinken. Senator, he is the first among equals, in our 
judgment. But he does have other constituencies that he has to 
factor in.
    Senator Rubio. All right. Can they possibly agree to a 
change of the kind we are contemplating without his approval, 
given the support he has in their legislative branch?
    Mr. Blinken. It is highly unlikely.
    Senator Rubio. Highly unlikely. So who is this ayatollah? 
Well, the ayatollah is not simply a head of state as we 
normally see it, the head of a nation-state. He is a radical 
cleric who, first of all, he does not just view Iran as a 
nation-state. He views Iran as a cause, as Henry Kissinger has 
described it. The cause is to eventually have the entire world 
living under the flag of Islam. That is actually stated in 
their constitution.
    It goes further and states that the ayatollah is not just 
the leader of Iran. He is the leader of all Muslims in the 
world.
    Is that not accurate? That is his position and title.
    So Iran is where he lives, but he views his mandate as 
extending to the whole world. But it goes beyond this. These 
are unambiguous statements on their part. He does not just view 
himself as a cleric. He views himself as the temporary fill-in 
for the 13th imam, the Mahdi, who under Shia, his 
interpretation of Shia, and I think the mainstream 
interpretation of Shia, is an imam that is currently in 
occultation who will emerge one day in the world and govern the 
entire world under the flag of Islam. Their stated purpose for 
the state of Iran is to serve as a base for that effort 
throughout the world.
    That is what motivates him. We are ascribing to his regime 
nation-state characteristics of a normal country that has a 
cost-benefit analysis about what is in the national interest of 
Iran. I do not dispute that there might be some political 
leaders in Iran who hold those views, but the ayatollah, the 
supreme leader, he does not view it that way. He views it as 
not just his calling, but his obligation to bring about the 
arrival of the 13th imam and to unify the world under the flag 
of radical Islam as he defines it.
    Here is why that is important. Under his clerical 
interpretation, and that of many in Shia, the 13th imam cannot 
emerge until there is a cataclysmic showdown between the Muslim 
and non-Muslim world. And when a country led by a person who 
wants there to be a cataclysmic showdown between the Muslim and 
non-Muslim world has designs on a nuclear weapon, now we have 
cause for great concern.
    And that is why they expand their military capability, and 
that is why they want a nuclear weapon.
    Now what they have shown is some crafty ability. They 
reject everything that is not Islamic in the world. They reject 
the legitimacy of the U.N. They reject the legitimacy of the 
United States. But they are very crafty. They accept the 
benefits of the international order--for example, their seat at 
the U.N.--but while still being able to reject their 
obligations under that international order.
    So what have they done with all that? Well, let us go 
through the timeline. In 2003, the position of the world was no 
enrichment. Then it became, you can enrich up to 20 percent. 
Then it became, you can enrich over 20 percent, as long as you 
send it overseas. Now it is, you can enrich up to 20 percent in 
Iran, as long as it is for a research facility.
    So if you go by the timeline of what they have been able to 
achieve over the last 10 years, it is pretty impressive how 
they have been able to use this process. In another 5 years, 
maybe we will build the bomb for them, at the rate this is 
going.
    In the meantime, the other two components of a nuclear 
program move forward unabated. A weapon design, you can buy 
that. You can buy that. You can buy a weapons design right now. 
Heck, you can download it online, potentially, if it is a crude 
weapon.
    And the missile program continues unabated. They continue 
to test long-range missile capabilities, not to mention adding 
to their already considerable conventional weapons capability.
    So this is why we are very concerned and have a right to be 
concerned. This is not a traditional nation-state undergoing a 
cost-benefit analysis. This is a cleric-led regime, a clerical 
government, with a clear intent of ultimately one day unifying 
the entire world under the flag of their radical version of 
Islam, led by someone who believes that will only happen after 
a cataclysmic showdown with the West.
    So we have real reasons to be deeply concerned and 
skeptical about the ability to reach any arrangement, and real 
reasons to believe that they are willing to accept short-term 
suspensions because their long-term view is that at the end of 
the day they are going to be at that showdown point. And if 
they have nuclear weapons, they are even better off than they 
would normally be.
    And that is why we are so skeptical about this deal. We are 
not dealing with Belgium here. We are not deal dealing with 
Luxembourg. We are dealing with a radical cleric with a radical 
view of his obligation and role in the world. And he wants 
nuclear weapons to be able to do it.
    And I believe that ultimately, I think no one here could 
dispute that, ultimately, even if they agree to a short 
suspension, that is their goal in the long term.
    And as the North Koreans have shown, you can agree to all 
sorts of short-term suspensions, and you can always invent a 
pretext for why now I need the weapon, because of hostilities 
of the West, because it is time for the hidden imam to emerge, 
whatever.
    And that is what we are concerned about. They will retain 
all the infrastructure that it takes to enrich. They will have 
a weapons design. They will have a delivery system in the 
missiles. And at some point, 3 years, 5 years, 10 years, they 
build a weapon and now the world is at their mercy. That is why 
we are so skeptical.
    Mr. Blinken. Senator, just to respond briefly, we share 
your concern, and we share your skepticism precisely because of 
Iran's long track record that you alluded to, which is exactly 
why any agreement we reach has to have the most stringent 
restrictions on its program and the most stringent requirements 
on access and transparency and monitoring, to give us 
confidence that they will not break out.
    I just want to say, with regard to consultations going 
forward, I think on this issue, and it is my sense that over 
the past months and past years, the administration has been 
here in closed sessions, obviously in open hearings, in one-on-
one conversations and smaller group conversations, to layout I 
think extensively where we are, where we are trying to go, on 
the Iran negotiations.
    I commit to you, Mr. Chairman, Ranking Member, Senator 
Rubio, others, that going forward, we will not only continue 
that, we will expand that, and we will be up here any time that 
you want, anyplace, to talk about where we are. And again, some 
of that, we just have to do in a closed session or in a private 
group, because the negotiations are ongoing. But we want to 
make sure that you see the full details of what we are trying 
to achieve.
    With regard to the suspicions about Iran and the supreme 
leader, again, we share them. We could spend all day here going 
through the outrageous things that he has said in the past, 
including the recent past, about us, about Israel, about other 
designs.
    But sometimes, reality has a way of intruding. And no 
matter what it is that he may believe and he may want, and no 
matter his exceptional role in the system, I think you are 
right about that, he has to deal with the realities that Iran 
is facing. And he has seen a country that has been subjected to 
extraordinary pressure economically, that has been more and 
more isolated. And he is seeing politically that a lot of the 
Iranian people do not like that.
    And Rouhani's selection, in our judgment, was in response 
to that. We have seen him give the negotiators I think more 
leeway than, frankly, we would have expected possibly at the 
outset. He has kept the talks going. We continue to make 
progress.
    At the end of the day, we will all have to judge whether 
what we have achieved in any kind of solution meets our 
security interests. We will not take a bad deal, precisely 
because we share your concerns and share your suspicions.
    But this is not happening in a vacuum. And I think we also 
have to ask ourselves continuously, ``As compared to what?'' If 
we are not able to reach an agreement, it may become 
increasingly difficult to sustain the sanctions regime. It 
depends a lot, I think, on what Undersecretary Cohen said about 
who is perceived as being responsible for the failure to get a 
strong agreement.
    Many of our partners have come along kicking and screaming 
to implement sanctions. It has been against their economic 
interests. We have held them there. A large part of that is 
because they believe we are trying to drive to an agreement.
    Indeed, that is the purpose, as has been said of the 
sanctions, to get them to the table.
    So we will have to test all of this out. We, again, start 
from the same proposition you do. We are very, very suspicious. 
We also see the reality that is intruding on the supreme 
leader's thinking.
    Thank you.
    The Chairman. Thank you, Senator.
    If I could say, again, this committee is not proposing 
anything that breaks us apart from the international partners 
that we have. I know you keep referring to that. I know that is 
a red herring that keeps being thrown out. But we are asking, 
many of us, for consultation and a vote on the deal that we 
have been so involved in making happen.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. I will be brief.
    First of all, put me in the column with the skeptics on 
this committee, such as the chairman and the ranking member 
and, likewise, Senator Kaine.
    I have been sitting through this from the beginning. I 
thought these guys were going to scam you from the beginning. I 
am convinced today that they have done that. I think they have 
us set up for what could be a real disaster.
    I mean, just think about how they went about this. First of 
all, what you have to do is look at the background, as 
articulated by Senator Rubio. But in addition to that, look at 
the efforts we have had in the past. Go back and read the 
chapter in Rouhani's book about what he did to the American 
negotiators, how he kept them at the table, and how he dragged 
his feet, and how he was using the peace process to actually 
continue their ambitions to get a nuclear weapon.
    All right, use that as your background. Then think about 
the U.N. resolution that said, ``Look, Iran, you cannot do this 
anymore.'' And Iran said, ``Nope, we are going to do it no 
matter what. We are not even going to negotiate, unless you 
guys agree that we can have some kind of a program.'' So now 
they have crossed that bridge.
    If you are going to do this and you are going to continue 
with your nuclear ambitions, going in the direction that 
Senator Rubio has suggested, why would you not sit down with 
your enemy, negotiate this kind of deal, and now you know 
exactly what the enemy is going to know. You are going to know 
what the inspection regime is. You are going to know how they 
are going to go about this. And you are going to be able to put 
together a system where you can continue your ambitions while 
the people who are supposed to be curtailing you are going 
about what they are going about and you knowing all the ways 
they are going to do it.
    I mean, I think you guys are being bamboozled. I really do. 
And I hope you can come in here someday and say, ``Ha, you 
doofus, you had no idea what you were talking about.'' I do not 
think that is going to happen.
    These people are bad people. I am on the Intelligence 
Committee. I sit here and every time we have a problem in that 
area of the world, whether it is Syria, whether it is Iraq, 
whether it is Yemen, or whether it is Hezbollah, wherever it 
pops up, whose fingerprints are on this? It is the Iranians.
    So look, it is getting late. I appreciate what you guys are 
doing. Bless you. I hope you can pull it off. But I have to 
tell you, I thought from the beginning you were going to get 
scammed, and every day that goes by here, and as I listen to 
how these negotiations are going, I think you are getting 
scammed. And I hope I am dead wrong.
    Mr. Blinken. Thank you, Senator. I would just say very 
quickly a couple things.
    I think with regard to what President Rouhani did in his 
past life as a nuclear negotiator, first of all, we were very 
much inspired by that in looking at what we insisted on in the 
interim agreement. It is precisely because we did not want Iran 
to be able to repeat what it has done in the past, which has 
been spend endless time talking at a table while it is going 
full bore with its program, that we insisted that the program 
effectively be frozen, rolled back in some respects, and we got 
increased inspections and access that have given us far greater 
knowledge of the program. So we were inspired by that.
    I would say, also, I think he is a politician. I suspect 
some of what he wrote in his book was to appeal as a politician 
to other Iranians. And, indeed, he is a successful one, since 
he got elected President.
    But again, we start from your premise that this is not 
about trusting. This is about absolutely verifying all the 
commitments they make.
    I think with regard to the inspections and access and 
monitoring piece, again, this is fundamental to any resolution 
that we would reach. And I believe that we will have the 
ability, if we reach the kind of agreement that we want to 
reach, to significantly enhance our ability and the ability of 
the international community throughout the entire production 
line and their program to know what they are doing, when they 
are doing it, where they are doing it. We will develop a base 
of knowledge that we do not even have now about the people, the 
places, the techniques that will stand us in very good stead 
even beyond the duration of the agreement. So we think it is in 
our interests.
    And again, right now, based on what we achieved to date 
with the interim agreement, you remember Prime Minister 
Netanyahu came before the United Nations a couple years ago, 
and he held up that drawing of a bomb and there was a line, and 
it was getting close to filling up the bomb. That was the 20 
percent enriched. And he was absolutely right.
    That was something that was critically important, 
particularly because it was being produced at a buried facility 
that is harder to deal with, if it has to be dealt with. Well, 
that has stopped under the JPOA. No 20 percent produced, 
stockpile eliminated.
    The other pathways to a bomb, looking at what they might do 
at the Iraq facility, the plutonium pathway, there, too, we had 
deep concerns about it because once that facility is turned on 
and fueled, it is very problematic, not impossible, but 
problematic also to deal with in other ways, if we had to do 
that. We stopped that in its tracks.
    No fuel. No components. No progress.
    The third pathway, Natanz, building up a lot of centrifuges 
at lower enriched levels, and then building up a massive 
stockpile that can then be more quickly converted to a higher 
grade, there, too, no new centrifuges, no next-generation 
centrifuges installed. The stockpile of 4 percent capped at its 
pre-JPOA levels.
    So, I believe because you are right----
    Senator Risch. Mr. Blinken, you have said all of that 
before. And I appreciate that. Like I said, I hope it works.
    My problem is this. Any inspection regime, any regime that 
you put together for doing this, they are going to know all 
about it. They are going to know all the details of it.
    And just remember that their objective is not your 
objective. Your objective, our objective, is to stop them.
    Their objective is to get to that point and doing it such 
that they are not going to get attacked in the meantime. They 
are going to know all the details of how to do it. In any 
regime you put together, there is technology that can get 
around that. So I hope you are right.
    Let me just close with this, on a very parochial matter. As 
we are speaking here right now, the President is on his way to 
Idaho. And while he is there, pursuant to a request from us, 
and we are happy he did so, he is going to meet with a woman by 
the name of Mrs. Abedini. Her husband is in prison in Iran. He 
should not be. There are three Americans who are there.
    For the life of me, and Wendy Sherman has had to sit there 
and listen to me say this month after month after month, why 
you guys cut loose of all that money, when they are so cash 
hungry, without putting your hand on it and saying we are going 
to take it off when those three guys are free, I cannot believe 
that they would not have cut those guys loose.
    I want to urge you again. The administration says it is the 
compassionate arm of the government. So be it. But use some 
compassion. Help Mrs. Abedini and those two little kids. Let us 
get this guy home. He has no business being in jail in Iran 
simply because he is a Christian and was over there doing 
Christian kinds of things.
    So with that, my time is up. And thank you, Mr. Chairman.
    Mr. Blinken. Senator, can I just say, you are absolutely 
right. Saeed Abedini, Amir Hekmati, Jason Rezaian must be 
released, regardless of anything else we are doing with Iran. 
It is an entirely distinct issue. They are wrongly imprisoned.
    And we need to find Robert Levinson and hopefully bring him 
home. We fully agree.
    But we also think that tying that to any agreement, the 
success or failure, for that matter, of any agreement, is not 
the best way to get them out.
    I can assure you, and I think you know this, the only issue 
that we raise with them on the margins of the nuclear talks 
every single time, other than the nuclear talks, are those who 
are unjustly imprisoned in Iran. We are working every day to 
get them home. We will not stop until we do.
    Senator Risch. Get it done.
    Mr. Blinken. Thank you.
    The Chairman. Thank you, Senator.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Thanks for your 
courtesy. I just have a couple quick questions and a couple 
observations.
    Secretary Blinken, let us be honest, as it relates to 
consultation, there was consultation, long consultations with 
members who were in agreement with the President's proposed 
policy changes, but none who might be in disagreement. That is 
on Cuba.
    And that gives rise to the concern that there will be no 
consultation, but notification only, to those of us who may be 
concerned about the nature of any agreement or continuous 
rolling extensions. So I hope you understand that, as it 
relates to moving forward.
    It was the subject of your conversation with me when you 
were a nominee, of questions I asked you here before the 
committee in your nomination. And I am disappointed.
    With reference to March 24, if there is a ``deal,'' will 
that deal be written?
    Mr. Blinken. At this point, I cannot tell you. My 
expectation would be that we would be able to show all of the 
critical elements of the deal. Whether there would be an actual 
initial agreement that would then be turned into a technical 
agreement, at this point I cannot tell you.
    Senator Menendez. Well, would not the outlines of a deal be 
something that the Iranians and the P5+1 should be able to sign 
to at least, so that there is no changing or, ``That is not 
what we understood,'' or, ``That is not what we agreed to''?
    Mr. Blinken. It would be my expectation that that is where 
we want to go, but as I sit here today, I cannot tell you 
exactly what form what we would achieve----
    Senator Menendez. It concerns me that we may not have a 
written agreement.
    Let me ask you this: there is no deal on March 24. You 
cannot come to even the outlines of an agreement. What then?
    Mr. Blinken. So, Senator, I think if there is no agreement 
on the core elements of a deal by March 24t it will depend on 
exactly where we are. So what I mean by that is----
    Senator Menendez. You may very well say, well, let us keep 
it going.
    Mr. Blinken. If it is clear by then that we are simply not 
going to get to yes, by which I mean it is clear that the 
Iranians will not meet the requirements, then I think we will 
have to work closely with you on what steps we will take to try 
to convince them to do that.
    If, however, we have closed off most of the key chapters, 
but, let us say, for argument's sake, one of the key chapters 
remains, that is something we would want to talk to you about 
to see what the best way to proceed is.
    Sitting here today, I think a lot depends on exactly where 
we are. But the bottom line is, if we conclude by the end of 
March that they are simply not going to do what they need to, 
that puts us in a very different position.
    Senator Menendez. Secretary Cohen, any of those hundred 
sanctions that you talked about that you levied, was Iran 
complicit in any of them, in terms of trying to evade 
sanctions? Or were the individuals just working on their own?
    Mr. Cohen. I think for some number of them, I believe some 
of them, in fact, were Iranian citizens, people in Iran, and 
others no question that Iran was at least witting of what was 
underway.
    Senator Menendez. So during this period of time of the 
Joint Plan of Action, there actually were efforts by Iran to 
evade sanctions. Fortunately, at least in those instances, you 
caught them. So it gives me another concern about their intent.
    Let me just say a couple of observations. Number one, with 
reference to Senator Paul and Senator Boxer, I am not sure that 
legislation that says that this is what will happen if there is 
no deal or a violation of a deal, which you say you think, 
Secretary Blinken, is acceptable, is any different, really, 
than what we are saying, which is we impose nothing until after 
the fact if there is no deal. I think that is nuanced, at best.
    It is interesting to note that sanctions on Russia vis-a-
vis Ukraine has not caused them to walk away from what they 
think is an important deal to be achieved. So the suggestion 
that sanctions alone that will never happen until after a 
certain point in time, in which you have either concluded a 
deal or not, and that will not happen if there is a deal, if 
the Russians would not walk away with sanctions on Ukraine 
saying if you are hurting us on this, we are going to hurt you 
on that is, I think, pretty telling.
    And to be very honest with you, Secretary Cohen, the 
overwhelming number of sanctions that this committee has levied 
through the Congress have overwhelmingly had a much more 
significant lead period of time than immediate imposition. 
Obviously, the time frame necessary for it to have an effect on 
Iran has been even greater.
    So there is no such thing as an immediate sanction that 
ultimately has an immediate effect. There are very few of 
those. It takes time for there to be consequences.
    I do not know, but it seemed to me it took us a fair amount 
of time to know about Parchin, which was a covert operation. So 
I would hate to see that even with what we envision as 
verification and inspection, that an attempt to do something 
covert would take us as much time as it took us in Parchin to 
uncover, and that would be consequential.
    Finally, Mr. Secretary, you stated that we will have the 
same ability to respond in the future, should Iran breach or 
break out, and we will have all options on the table. I think 
that ignores the reality that Iran will be in a different 
position.
    Iran will be able to sell more than 2 million barrels of 
oil. It will have access to $100 billion in reserves currently 
being held overseas. And it will have the ability to procure 
critical items for its program.
    It gets a lot from an agreement that will apparently 
require note dismantling of its program. We get a 1-year alarm 
bell, which just may not be enough time to react in a 
nonmilitary fashion.
    So the very essence of the President's concern and is 
telling people that, well, sanctions, if it breaks the 
coalition, then we may be left with only a military option. I 
will tell you something, if you have nothing in place after a 
no-deal situation, then the President may very well be of his 
own design in a position in which his only option is a military 
option or accepting Iran as a nuclear state. And that is a 
pretty terrible set of circumstances.
    Now maybe you do not fear that because maybe there is 
another set of secret letters or deals on the side that we do 
not know about. There have been a lot of those in these 
different transactions. So I do not know if there are. Maybe 
you can tell us whether there are any that we should be waiting 
upon.
    Mr. Blinken. There are not.
    Senator Menendez. Well, that is good to know. Hopefully, 
none will surface afterward, because then we will have to have 
a real conversation.
    So I will just say, look, I think that to some degree, no 
one has worked harder to try to get you to the point to 
succeed. I want you to succeed. But by the same token, I have 
to be honest with you, you need to succeed in a way that is 
meaningful, at the end of the day.
    And there is a bit of a trust problem here, because when 
you have secret deals, when you do not consult, which is to 
ask, ``We are thinking about proceeding on this course. What do 
you think about that?'' versus just telling us, ``This is what 
we have done.'' That is notification, not consultation.
    And when Secretary Cohen and Wendy Sherman were here in the 
past, when I was pursuing sanctions, and I heard all the alarm 
bells as well--even after I was asked to work with Senator Kirk 
to come up with a more reasonable sanctions regime--and then 
have them oppose it before this committee, it creates a real 
concern about when you raise alarm bells--and that passed 99-0. 
And now you herald it as part of your ability to get Iran to 
negotiate. So that is a real concern, as well.
    So there is a difference between our aspirations and 
realism. Aspirations had us strike a deal with North Korea, 
including with one of your present negotiators. Realism is that 
they ended up being a nuclear arms state. That is what we are 
trying to avoid here.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir. Again, thanks for all your 
efforts to bring us to this point. I look forward, over the 
next few days, to see if there is some common ground to address 
the consultation and Congress' role, ultimately, in this.
    I do want to say one thing. I know there have been a lot of 
discussions about Bibi Netanyahu's whatever you might have 
called his prop at the U.N. I think it is fair to note that 
with the additional research and development that Iran has 
done, and they are moving way up the food chain from the 
standpoint of the centrifuge development, they can move so much 
more quickly from 0 to 90 percent now that that is almost an 
old adage. I think you all are very aware of that.
    And I think that is the concern that we have. It is on the 
research and development component, and the things they are 
doing to move rapidly--rapidly--toward being able to get to 90 
percent very, very quickly.
    But let me just give a few closing comments. I, too, want 
you to be successful. I wake up every day wanting our Nation to 
be successful in every endeavor. And I think I have shown to 
this administration my desire to work toward common ground and 
to try to solve problems. So I want these negotiations to be 
successful.
    And I had one of the most impactful meetings, along with a 
number of people here on the committee, in Israel just in the 
last couple days.
    But I think the concerns are, as you look back over the 
history over the last 10 years that some people have alluded 
to, Iran has stayed here and the P5 began here, and as the 
negotiations have progressed, what has happened is the P5 and 
us, being the major driving force, have continued to move 
toward their position.
    And I would just argue that, again, having Congress as a 
backstop as you enter these final steps, having Congress as a 
backstop, someone that you do, in fact, not only have to 
consult with but you have to seek their approval, would be 
somewhat of an anchor to keep us from continuing to move toward 
their position.
    I think it would be very difficult for you to say that 
there has not been a continual movement toward their position. 
I mean, you look at where we began with the U.N. security 
resolutions, you look at where we began with us potentially 
agreeing to them having enough centrifuges to serve their, 
quote, ``practical needs,'' which, as I understand it, every 
scientist has said was about 500 centrifuges, and I think you 
would tell me today we have moved way beyond that.
    So I would just say to you, Congress can be an excellent 
backstop to you as you are moving down the road.
    I thought Senator Kaine probably expressed it better than 
any of us here. When we entered into these agreements that 
Senator Menendez was so much a part of, meaning the sanctions, 
I do not think anyone in giving you the national security 
waivers ever thought the President was going to suspend them, 
in all likelihood, until the end of his term. I do not think 
anybody ever thought that.
    So the fact that we know that if you do that, the entire 
sanctions regime falls apart. I have tremendous respect for 
Secretary Cohen. But the fact is, these take a long time to put 
together. And so, again, to have to come to us on the front end 
of a deal, before you dismantle the entire regime, to me, is an 
incredibly important step that I hope you with will consult 
with us on.
    We laid out a proposal. We hope you will consult. And we 
hope you will come to an agreement that takes into account some 
of the nuance that you pointed out earlier, that you would like 
us to discuss.
    But just stiff-arming, and saying after the role that we 
have played, to basically put the international community at 
the table just to stiff-arm, say, ``No, we really do not want 
you to play a role. You want you just to trust us,'' is totally 
unacceptable, from my standpoint.
    So look, the Supreme Leader, we keep referring to him.
    And apparently as we negotiate, we seem to be more 
concerned about the Supreme lLader's position than anyone 
else's. I just want to lay out one thing. The Supreme Leader 
has said publicly that one of his major concerns is that Iran 
enters into an agreement and somehow, over time, Congress 
changes its mind.
    We have a presidential race that is coming up. I assure you 
that the Iran component will be a major part of the next 
Presidential race. I believe that to be the case. And so, since 
there is so much concern about the supreme leader and him 
walking away or doing whatever, I would just say that Congress' 
approval of a deal to me would be reassuring that whatever deal 
that you have done will stand the test of time.
    So I would encourage you to sit down, to walk through with 
us some of the concerns you have about timing. But I would say 
that general movement today is toward Congress playing a role. 
I think, again, just stiff-arming does not take us to a place 
that probably meets the test that both of us need to meet. And 
I would encourage you again to sit down and talk with us.
    We thank you for being here today. We thank you both, in 
spite of our concerns, for your service to our country.
    Let me just give some formalities.
    For the information of the members, the record will remain 
open until the close of business Friday, including for members 
to submit questions for the record.
    We ask the witnesses to respond as promptly as possible. 
Your responses will also be made a part of the record.
    The Chairman. With the thanks of the committee, this 
hearing is now adjourned. Thank you.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Antony J. Blinken to Questions 
                    Submitted by Senator Bob Corker

    Question. According to your understanding of potential SFRC 
legislation related to congressional review of a deal, would anything 
in that draft bill cause the Iranians to walk away or impede your 
ability to negotiate a deal by July? If so how and why?

    Answer. We are committed to being in close touch with you whatever 
the outcome of negotiations. The arrangement we are seeking is not a 
treaty or an Executive agreement, and we have concerns about the 
precedent this legislation would set for future similar executive 
branch negotiations. Legislation that imposes an ``up or down'' vote 
immediately after reaching a comprehensive deal is likely to have a 
significant adverse impact on the negotiations. The proposed 
legislation calling for an up-or-down vote by Congress would set up 
procedural hurdles that would effectively bar implementation of such a 
deal for months. If we do not have the ability to offer timely 
sanctions relief, Iran is unlikely to take the steps necessary to 
assure the international community that its nuclear program is 
exclusively peaceful (including through implementation of stringent 
transparency and verification measures), thereby derailing the 
comprehensive arrangement from the outset.
    The experience with the JPOA illustrates this point. While we 
believed from the beginning that the terms of the JPOA strongly 
advanced U.S. strategic policy interests, legitimate questions were 
raised about Iran's intentions to comply with those terms. Over time, 
we have been able to carefully monitor Iran's behavior. But if Congress 
had been asked to vote shortly after the JPOA was agreed to, we suspect 
that many Members who today agree that that agreement has advanced our 
security, might have initially voted it down. Therefore, it will be 
critical to allow time to first test Iran's compliance with whatever 
arrangement we reach.

    Question. Wouldn't congressional review of any deal help ensure 
that it lasts beyond this administration?

    Answer. While Congress has a critical role in sustaining any 
strategically important foreign policy initiative, we are not seeking a 
formal congressional review. The durability of any deal will be based 
on strict verification and enforcement mechanisms that will commit Iran 
to taking the steps necessary to assure the international community 
that its nuclear program is exclusively peaceful. This will include 
provisions to ensure the reimposition of sanctions if Iran fails to 
live up to its commitments coupled with significantly enhanced 
transparency and monitoring measures so that the IAEA can verify the 
exclusively peaceful nature of Iran's nuclear program and quickly 
detect any attempts to break out. And in any case, a vote by Congress 
approving this arrangement would not ensure the durability of the deal, 
as it would not bind future Congresses or administrations to continue 
implementation.

    Question. What do your partners in the P5+1--the British, French, 
Germans, Chinese, and Russians--tell you on the impact of congressional 
review on the negotiations? Are there different perspectives?

    Answer. The P5+1 has remained united throughout the negotiations. 
Our P5+1 partners have repeatedly stressed the need to create the space 
for negotiations to succeed. They have expressed concern about any 
action that could limit the flexibility or credibility of the U.S. 
negotiators.

    Question. Other than North Korea, which did not work out well for 
the United States, and Libya, which gave up its whole nuclear program, 
are there other examples of us making an agreement without 
congressional approval with a rogue nation pursuing nuclear 
capabilities?

    Answer. In keeping with long-standing practice, the Executive 
branch has concluded that a political arrangement would best promote 
its objectives in verifiably ensuring that Iran's nuclear program is 
exclusively peaceful. We have taken this approach in similar areas of 
national security significance. These include, for example, several key 
nonlegally binding arrangements in the area of nonproliferation, 
international security, and transparency, such as the Proliferation 
Security Initiative, Nuclear Suppliers Group Guidelines, Missile 
Technology Control Regime, Hague Code of Conduct Against Ballistic 
Missile Proliferation, Helsinki Final Act, and Vienna Document on 
Confidence- and Security-Building Measures.
    More recently, following reports of chemical weapons attacks by 
Syria, the United States and Russia also negotiated the Framework for 
Elimination of Syrian Chemical Weapons. This framework, which was not 
legally binding and was not subject to congressional approval, outlined 
the steps for eliminating Syria's chemical weapons and helped lay the 
groundwork for a successful multilateral effort to rid the world of 
these dangerous weapons.
    Congress has played a critical role throughout this negotiation and 
in the years leading up to these talks, and there is no doubt that 
Congress will continue to play a role. We know we cannot fully 
implement a comprehensive deal without Congress, and we intend to 
continue to work closely with you as we move forward.
                                 ______
                                 

              Responses of Antony J. Blinken to Questions 
                    Submitted by Senator Marco Rubio

    Question. During your testimony, you said that you ``were aware 
generally'' that the White House was conducting secret discussions with 
Cuba. When did you become aware of the administration's plans to ease 
restrictions on Cuba? If you, as the President's Deputy National 
Security Advisor and the chair of the National Security Council's 
``Deputies Committee'' at the time were only ``aware generally'' of the 
discussions with Cuba then who on the President's national security 
team was in charge of overseeing this major change in U.S. policy 
toward Cuba and the interagency process to review such a change? Would 
you agree that the committee should hear directly from the main 
negotiators of the agreement given the lack of adequate consultation 
prior to the President's announcement?

    Answer. From my experience on both ends of Pennsylvania Avenue, I 
know our foreign policy is more effective and sustainable when it 
benefits from strong congressional engagement and oversight.
    These were complex discussions that demanded the utmost discretion. 
We were determined to secure Alan Gross's release, and we were 
determined to improve our ability to bring positive change to Cuba. We 
had to manage a careful balance between facilitating this process while 
keeping a range of stakeholders adequately informed.
    From our frequent consultations with Congress, we were well aware 
of the concerns of some Members about any changes in our Cuba policy. 
We will continue to work closely with Congress in a bipartisan manner 
to bring positive change to Cuba.

    Question. In your testimony, you said that you would provide the 
list of members of the Foreign Relations Committee that were consulted 
about the administration's policy change prior to the announcement. 
Please provide this list.

    Answer. The administration has and will continue to regularly brief 
and consult with Congress regarding its Cuba policy.
    Prior to the President's announcement on December 17, the 
administration briefed the congressional leadership, key committees, 
and other Members.
    We will continue to work closely with Congress in a bipartisan 
manner to bring positive change to Cuba.

    Question. Just to be clear about the type of regime that the 
administration is currently negotiating with. Is the Supreme Leader of 
Iran responsible for the deaths of Americans, including the murders of 
members of the U.S. military in Iraq over the last decade?

    Answer. The Supreme Leader directly controls Iran's Armed Forces 
and we take issue with a great deal of Iran's behavior, both past and 
present. On Iraq, the question for the Iranians is whether they're 
going to pursue their interests in a constructive way that respects 
Iraqi sovereignty or in a destructive way that undermines it.

    Question. Do you have any doubt that the Supreme Leader and the 
Iranian regime would hesitate to once again target American citizens, 
possibly through their Shiite militia proxies, if they felt doing so 
was in their interest?

    Answer. I do not think it is useful to speculate about what Iran 
may or may not do, but I can assure you that we take the threat of 
violence from Iran or its proxies seriously, and we monitor this threat 
very closely. We take every step to ensure we are prepared to defend 
against any such attack. We have long expressed concerns about Iran's 
support for terrorism and other destabilizing activities in the region, 
and have continued to work with our allies in the region to push back 
on Iran's actions.

    Question. Has Iranian support for terrorism changed in any way 
since the Joint Plan of Action between the P5+1 countries and Iran was 
agreed to in late November 2013?

    Answer. Iran has been on the Department's list of state sponsors of 
terrorism since 1984. We remain concerned about Iran's support for 
groups such as Lebanese Hezbollah, Hamas, and Iraqi Shia militant 
groups, which has contributed to instability in the region and around 
the world.
    We will continue to strictly enforce our sanctions against Iran for 
its support of terrorism. We have been clear that we will retain those 
sanctions that are related to terrorism and human rights as sanctions 
remain an important tool to address Iran's destabilizing activities in 
the region and its serious abuses of human rights.

    Question. Since November 2013, has there been any progress in 
obtaining the releases of Americans imprisoned or missing in Iran such 
as Pastor Saeed Abedini, Robert Levinson, or Amir Hekmati? What has the 
administration done to obtain the release of detained Washington Post 
reporter, Jason Rezaian?

    Answer. We remain committed to doing all we can to reuniting Saeed 
Abedini, Amir Hekmati, Jason Rezaian, and Robert Levinson with their 
families. Since November 2013, the only other issue that Under 
Secretary Sherman discusses on the sidelines of the P5+1 negotiations 
is that of our missing or detained U.S. citizens. Secretary Kerry has 
raised their cases with Foreign Minister Zarif on several occasions. 
Additionally, we have reached out to dozens of foreign governments to 
encourage them to raise this issue with their Iranian counterparts. 
Because of privacy considerations, we are unable to comment further on 
our efforts on behalf of these individuals.

    Question. Argentina.--As you know, the sudden death of Dr. Alberto 
Nisman in Argentina has caused great concern in Argentina and 
throughout the hemisphere, including here in the United States. Dr. 
Nisman had spent the last decade investigating and documenting Iran's 
responsibility for a terrorist attack against a Jewish center in Buenos 
Aires, as well as Iranian ties to at least one thwarted terrorist plan 
to blow up the gas lines underneath JFK airport in 2007.
    Last week, he published a report accusing President Fernandez, her 
Foreign Minister, Hector Timmerman, and at least two other individuals 
tied to a political movement led by Maximo Kirchner, the President's 
son, of conspiring to clear Iranian officials' responsibility for the 
AMIA attack, in order to facilitate a grains-for-oil scheme between the 
two countries. Both, Iran and Argentina, are shut out of the 
international financial system.

  <diamond> Can the Argentine judicial system conduct a transparent and 
        credible investigation of Dr. Nisman's death--given the history 
        of severe irregularities in Argentina's judicial system, the 
        threats against Prosecutor Nisman, and the widespread view that 
        his death was aimed at silencing him and those who may be privy 
        to the information he is reported to have about a planned 
        coverup of Iran's role in the AMIA?
  <diamond> Can you describe any communication you have had with 
        Argentine authorities on this matter since his death?

    Answer. I was deeply saddened by Alberto Nisman's death on January 
18. In response, the U.S. Embassy in Buenos Aires immediately conveyed 
our sympathies to his family and sadness for the loss of a dedicated 
and tireless investigator who sought accountability for the tragic 1994 
bombing of the AMIA Jewish community center in Buenos Aires.
    The U.S. Government has been in contact with Argentine law 
enforcement officials regarding the investigation into Mr. Nisman's 
death and has offered assistance. The prosecutor in this case has been 
releasing information to the public concerning forensic tests and other 
evidence, clearly aware of the importance 
of transparency. We hope there will be progress in the case soon, and 
we will continue to follow it closely, and publically urge that the 
investigator be thorough and impartial.
    We are also watching developments in the AMIA investigation and 
have been clear that Mr. Nisman's death should not disrupt Argentina's 
efforts to bring to justice those responsible for that barbaric and 
cowardly bombing.
                                 ______
                                 

              Responses of Antony J. Blinken to Questions 
                  Submitted by Senator Johnny Isakson

    Question. Iran is already a party to the Non-Proliferation Treaty, 
which it has violated. Do you believe that a comprehensive agreement 
would ensure the regime adheres to the Non-Proliferation Treaty 
throughout the term of the agreement? And after the terms of the 
agreement have ended?

    Answer. We seek to achieve a long-term comprehensive solution to 
the Iranian nuclear issue. Our objectives include ensuring Iran's 
compliance with the Nuclear Non-Proliferation Treaty (NPT), preventing 
it from acquiring a nuclear weapon, and ensuring that its nuclear 
program is used for exclusively peaceful purposes. Our negotiators and 
technical experts are working on a comprehensive package that will help 
best achieve those goals.
    Under a comprehensive solution, Iran would be subject to 
significantly enhanced transparency and monitoring measures to verify 
the exclusively peaceful nature of its nuclear program. We have long 
said that any deal will not be based on trust, which is why we continue 
to place a high priority on strict monitoring measures in order to 
detect violations promptly. In addition, we have also been clear that 
any deal must structure sanctions relief so that we can quickly snap 
sanctions back into place should Iran fail to meet its commitments.
    Even following successful implementation of a comprehensive 
solution for its full duration, Iran would remain bound by its 
international nonproliferation obligations, including the NPT and its 
International Atomic Energy Agency (IAEA) safeguards agreement--and the 
IAEA Additional Protocol, which the deal would require Iran to accept 
as legally binding (which is not currently the case). The Additional 
Protocol is an essential tool for the IAEA to have the enhanced access 
to information and facilities needed to detect undeclared nuclear 
activities in Iran.
    Verification measures associated with these agreements would 
continue after the deal is completed, and we would be prepared to 
respond to any future Iranian noncompliance with its obligations. 
Furthermore, we believe the additional insights we would gain into 
Iran's nuclear program from the enhanced verification and monitoring 
measures under a comprehensive solution would better enable us to 
verify Iran's future compliance with its international nuclear 
obligations.

    Question. How confident are you that the United States, the IAEA, 
or any other international partner will be able to uncover potential 
clandestine efforts by Iran to further develop their nuclear capacity?

    Answer. Under a long-term comprehensive solution, Iran would be 
subject to significantly enhanced transparency and monitoring measures 
to verify the exclusively peaceful nature of its nuclear program. In 
addition, the comprehensive solution would require Iran to accept as 
legally binding the terms of the Additional Protocol, which would give 
the International Atomic Energy Agency enhanced access to information 
and facilities to help assure against undeclared nuclear activities in 
Iran.
    We are confident that the United States would have sufficient time 
to respond to an Iranian attempt at breakout, should Iran decide to 
make that attempt. In addition, should Iran take such a decision, the 
President has been clear that the United States will do what it must to 
prevent Iran from acquiring a nuclear weapon. We would refer you to the 
Office of the Director of National Intelligence for a more detailed 
assessment of our capabilities to detect undeclared nuclear facilities 
in Iran.

    Question. The President has said there is about a 50-percent chance 
that an agreement will be reached with Iran. What sense do you get from 
the other negotiating parties? What about from Iran's negotiators?

    Answer. We have made incremental but real progress in our 
negotiations with Iran through intense diplomatic and technical work on 
the key issues that form the basis for a comprehensive deal. Throughout 
this process, we have been in regular consultations with the EU and our 
P5+1 partners. The P5+1 has remained united throughout this process and 
we are confident that we are all working toward the same goal. We agree 
with the assessment of the EU High Representative for Foreign Affairs 
and the Foreign Ministers of France, Germany, and the U.K., who wrote 
in a January 21, 2015, op-ed in the Washington Post, ``To be sure, 
difficult challenges lie ahead, and critical differences between Iran 
and the international community must be addressed.''
    Iran's negotiators have worked hard and brought a seriousness of 
purpose to the negotiating table. We have had many frank and 
substantive discussions. Now is the time for Iran to make the difficult 
choices to assure the world that its nuclear program will be 
exclusively peaceful.

    Question. I worry that we are creating an acceptable status quo by 
continuing to extend the Joint Plan of Action. What incentive does the 
Iranian regime have to move forward if we keep extending the Joint Plan 
and they continue to receive modest sanctions relief?

    Answer. The Joint Plan of Action is structured so that the 
overwhelming majority of sanctions--including the key oil, banking, and 
financial sanctions architecture--remain firmly in place. As a result 
of our sanctions, and exacerbated by the recent drop in oil prices, 
Iran's economy remains under intense and sustained pressure. The total 
value to Iran of the Joint Plan of Action cannot make up for Iran's 
systemic economic weaknesses and imbalances. Iran understands the only 
way it will get comprehensive sanctions relief is through a 
comprehensive deal with the P5+1. The administration is committed to 
ensuring that Iran remains under sustained economic pressure as we 
continue negotiations.

    Question. If an agreement is reached, it will have an end date. 
Whether that date is 5, 10, 20 years in the future, what will the 
United States, the IAEA, and the International community have to do to 
ensure that Iran doesn't just wait out this agreement?

    Answer. Following successful implementation of a comprehensive 
solution for its full duration, Iran would remain bound by its 
international nonproliferation obligations, including the Nuclear Non-
Proliferation Treaty (NPT), its IAEA safeguards agreement, and the IAEA 
Additional Protocol. Indeed, one of the key objectives of the 
negotiations on the comprehensive solution is for Iran to be bound by 
the Additional Protocol (which it currently is not) in order to give 
the IAEA the tools to detect any future clandestine effort by Iran to 
acquire fissile material for nuclear weapons. Verification measures 
associated with these agreements would continue, and we would be 
prepared to respond to any future Iranian noncompliance with its 
obligations. Furthermore, we believe the additional insights we would 
gain into Iran's nuclear program from the enhanced verification and 
monitoring measures under a comprehensive solution would better enable 
us to verify Iran's compliance with its international nuclear 
obligations.

                                  [all]
</pre></body></html>
